<html>
<title> - WHITE HOUSE PROCEDURES FOR SAFEGUARDING CLASSIFIED INFORMATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
     WHITE HOUSE PROCEDURES FOR SAFEGUARDING CLASSIFIED INFORMATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2007

                               __________

                           Serial No. 110-28

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
38-579                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2007...................................     1
Statement of:
    Knodell, James, Director, Office of Security, Executive 
      Office of the President, the White House; and William 
      Leonard, Director, Information Security Oversight Office, 
      National Archives and Records Administration...............    43
        Knodell, James...........................................    43
        Leonard, William.........................................    44
    Wilson, Valerie Plame, former employee, Central Intelligence 
      Agency.....................................................    17
    Zaid, Mark, esquire; and Victoria Toensing, esquire..........    72
        Toensing, Victoria.......................................    74
        Zaid, Mark...............................................    72
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    15
    Leonard, William, Director, Information Security Oversight 
      Office, National Archives and Records Administration, 
      prepared statement of......................................    46
    Toensing, Victoria, esquire, prepared statement of...........    77
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     4


     WHITE HOUSE PROCEDURES FOR SAFEGUARDING CLASSIFIED INFORMATION

                              ----------                              


                         FRIDAY, MARCH 16, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:16 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, 
Watson, Yarmuth, Van Hollen, Sarbanes, Davis of Virginia, and 
Westmoreland.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; David Rapallo, chief investigative counsel; 
Roger Sherman, deputy chief counsel; Theo Chuang, deputy chief 
investigative counsel; Michael Gordon, senior investigative 
counsel; Susanne Sachsman, counsel; Molly Gulland, assistant 
communications director; Earley Green, chief clerk; Teresa 
Coufal, deputy clerk; Caren Auchman, press assistant; Zhongrui 
``JR'' Deng, chief information officer; Bonney Kapp, fellow; 
David Marin, minority staff director; Larry Halloran, minority 
deputy staff director; Jennifer Safavian, minority chief 
counsel for oversight and investigations; Anne Marie Turner and 
Steve Castor, minority counsels; Christopher Bright, minority 
professional staff member; Nick Palarino, minority senior 
investigator and policy advisor; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; and Benjamin 
Chance, minority clerk.
    Chairman Waxman. The meeting of the committee will come to 
order. Today the committee is holding a hearing to examine how 
the White House handles highly classified information.
    In June and July 2003, one of the Nation's most carefully 
guarded secrets, the identity of a covert CIA agent, Valerie 
Plame Wilson, was repeatedly revealed by White House officials 
to members of the media.
    This was an extraordinarily serious breach of our national 
security. President George W. Bush's father, the former 
President Bush said, ``I have nothing but contempt and anger 
for those who exposed the names of our sources. They are, in my 
view, the most insidious of traitors.''
    Today we'll be asking three questions. One, how did such a 
serious violation of our national security occur? Two, did the 
White House take the appropriate investigative and disciplinary 
steps after the breach occurred? And three, what changes in 
White House procedures are necessary to prevent future 
violations of our national security from occurring?
    For more than 3 years Special Prosecutor Patrick Fitzgerald 
has been investigating the leak for its criminal implications. 
By definition, Mr. Fitzgerald's investigation had an extremely 
narrow criminal focus. It did not answer the broader policy 
questions raised by the release of Mrs. Wilson's identity. Nor 
did it seek to ascribe responsibility outside of the narrow 
confines of the criminal law.
    As the chief investigative committee in the House of 
Representatives, our role is fundamentally different than Mr. 
Fitzgerald's. It is not our job to determine criminal 
culpability. But it is our job to understand what went wrong 
and to insist on accountability, and to make recommendations to 
avoid future abuses. We begin that process today.
    This hearing is being conducted in open session. This is 
appropriate, but it is also challenging. Mrs. Wilson was a 
covert employee of the CIA. We cannot discuss all of the 
details of her CIA employment in open session. I have met 
personally with General Hayden, the head of the CIA, to discuss 
what I can and cannot say about Mrs. Wilson's service. And I 
want to thank him for his cooperation and help in guiding us 
along these lines.
    My staff has also worked with the Agency to assure these 
remarks do not contain classified information.
    I have been advised by the CIA that even now after all that 
has happened, I cannot disclose the full nature, scope, and 
character of Mrs. Wilson's service to our Nation without 
causing serious damage to our national security interests.
    But General Hayden and the CIA have cleared these following 
comments for today's hearing.
    During her employment at the CIA, Mrs. Wilson was 
undercover.
    Her employment status with the CIA was classified 
information, prohibited by disclosure under Executive Order 
12958.
    At the time of the publication of Robert Novak's column on 
July 14, 2003, Mrs. Wilson's CIA employment status was covert. 
This was classified information.
    Mrs. Wilson served in senior management positions at the 
CIA in which she oversaw the work for other CIA employees and 
she attained the level of GS-14, step 6 under the Federal pay 
scale. Mrs. Wilson worked on some of the most sensitive and 
highly secretive matters handled by the CIA. Mrs. Wilson served 
at various times overseas for the CIA.
    Without discussing the specifics of Mrs. Wilson's 
classified work, it is accurate to say that she worked on the 
prevention of the development and use of weapons of mass 
destruction against the United States.
    In her various positions at the CIA, Mrs. Wilson faced 
significant risks to her personal safety and her life. She took 
on serious risks on behalf of our country. Mrs. Wilson's work 
in many situations had consequences for the security of her 
colleagues, and maintaining her cover was critical to 
protecting the safety of both colleagues and others.
    The disclosure of Mrs. Wilson's employment with the CIA had 
several serious effects. First, it terminated her covert job 
opportunities with the CIA. Second, it placed her professional 
contacts at greater risk. And third, it undermined the trust 
and confidence with which future CIA employees and sources hold 
the United States. This disclosure of Mrs. Wilson's classified 
employment status with the CIA was so detrimental that the CIA 
filed a crimes report with the Department of Justice.
    As I mentioned, Mrs. Wilson's work was so sensitive that 
even now, she is still prohibited from discussing many details 
of her work in public because of the continuing risks to CIA 
officials and assets in the field and in the CIA's ongoing 
work.
    Some have suggested that Mrs. Wilson did not have a 
sensitive position with the CIA or a position of unusual risk. 
As a CIA employee, Mrs. Wilson has taken a life-long oath to 
protect classified information even after her CIA employment 
has ended. As a result, she cannot respond to most of the 
statements made about her.
    I want to make clear, however, that any characterization 
that minimizes the personal risk of Mrs. Wilson that she 
accepted in her assignments is flatly wrong. There should be no 
confusion on this point. Mrs. Wilson has provided great service 
to our Nation and has fulfilled her obligation to protect 
classified information admirably and with confidence and she 
will uphold it again today.
    That concludes the characterizations that the CIA is 
permitting us to make today. To these comments, I want to add a 
personal note. For many in politics, praising the troops and 
those who defend our freedom is second nature. Sometimes it is 
done in sincerity and sometimes it is done with cynicism, but 
almost always we don't really know who the people are. We don't 
know they're out there, we don't know who those people are that 
are out there. They are our abstract heroes, whether they are 
serving in the armed services or whether they're serving in the 
CIA.
    Two weeks ago this committee met some real heroes face-to-
face when we went to visit Walter Reed. Every Member was 
appalled at what we learned. Our treatment of the troops didn't 
match our rhetoric. Fortunately, Mrs. Wilson hasn't suffered 
physical harm and faces much more favorable circumstances now 
than some of the soldiers that we met last week. But she too 
has been one of those people fighting to protect our freedom, 
and she, like thousands of others, was serving our country 
bravely and anonymously. She didn't ask that her identity be 
revealed but it was, repeatedly. And that was an inexcusable 
breach of the responsibilities our country owes to her.
    Once again our actions did not match our rhetoric. I want 
to thank Mrs. Wilson for the tremendous service she gave to our 
country and recognize the remarkable personal sacrifices that 
she and countless others have made to protect our national 
security.
    You and your colleagues perform truly heroic work and what 
happened to you not only should never have happened, but we 
should all work to make sure it never happens again. Thank you 
very much.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T8579.001

[GRAPHIC] [TIFF OMITTED] T8579.002

[GRAPHIC] [TIFF OMITTED] T8579.003

[GRAPHIC] [TIFF OMITTED] T8579.004

[GRAPHIC] [TIFF OMITTED] T8579.005

[GRAPHIC] [TIFF OMITTED] T8579.006

[GRAPHIC] [TIFF OMITTED] T8579.007

[GRAPHIC] [TIFF OMITTED] T8579.008

[GRAPHIC] [TIFF OMITTED] T8579.009

    Chairman Waxman. I want to yield to Mr. Davis, the ranking 
member of our committee. And in doing so, I want to thank him 
for his cooperation in this hearing. This has been a 
complicated hearing. It is much more complicated than most of 
our hearings. We had to decide what we could and what we 
couldn't say, what we could and couldn't ask, whether it would 
be an open session or closed session, etc. And I want to thank 
Mr. Davis for the tremendous cooperation he has given and I do 
recognize him at this point.
    Mr. Davis of Virginia. Thank you, Chairman Waxman. I want 
to first start by congratulating you on your passage of 
important reform legislation this week. We adopted bipartisan 
bills crafted in this committee to strengthen the Freedom of 
Information Act, disclose donors to Presidential libraries, 
expand access to Presidential records and to fortify most of 
all protections. Given those accomplishments, it is ironic that 
we in Sunshine Week of the annual observance of open 
government--with a more partisan hearing on how to best keep 
secrets.
    Let me state at the outset that the outing of Mrs. Wilson's 
identity was wrong, and we have every right to look at this and 
investigate it. But I have to confess, I'm not sure what we're 
trying to accomplish today, given all the limitations that the 
chairman has just described that have been put on us by the 
CIA.
    I ostensibly called to examine White House procedures for 
handling and protecting classified information. The hearing's 
lead witness never worked at the White House. If she knows 
about security practices there, she can't say much about them 
in a public forum. We do know that she worked at the CIA. That 
now well-known fact raises some very different questions about 
how critical and difficult it is to protect the identity of 
individuals with covert status.
    But, again, those are questions we probably can't say much 
about in a public forum without violating the various security 
safeguards the majority claims to be worried about at the White 
House. Under these circumstances, perhaps a hypothetical case 
is the best way to describe the futility of trying to enforce 
the Intelligence Identities Protection Act in this decidedly 
nonjudicial venue.
    Let's say, for example, a committee staff is told to 
identify a CIA witness for a hearing on security practices. He 
or she calls the Agency and asks to speak with official A. 
Official A is not in so the call is routed to official B, who 
identifies him or herself by name and title and answers the 
staffer's question. Thinking official B would be a fine 
witness, the staff then calls the Congressional Research 
Service or a friend at another committee to find out more about 
official B, but official B happens to be a covert agent. In 
passing the name, title and CIA affiliation around, has the 
staff member violated the law against disclosure? Probably not. 
But you would have to be looking through a pretty thick 
political prism to see an intentional unauthorized disclosure 
in that context, and that happened.
    In the case of Mrs. Wilson, the majority stresses the fact 
the disclosure of her status triggered a crimes report by the 
CIA and the Justice Department. Allegations against White House 
officials and reporters were thoroughly vetted, but after 
spending 6 months and millions of dollars, the special counsel 
charged no one with violations of the Intelligence Identities 
Protection Act. The lack of prosecution under the act show 
those disclosures probably occurred in a similarly 
nonintentional context, lacking the requisite knowledge of 
covert status or the intention to disclose that status without 
authorization.
    No process can be adopted to protect classified information 
that no one knows is classified, just as no one can be 
prosecuted for unauthorized disclosure of information that no 
one ever said was protected. So this looks to me more like a 
CIA problem than a White House problem. If the Agency doesn't 
take sufficient precautions to protect the identity of those 
who engage in covert work, no one else can do it for them.
    The same law meant to protect secret identities also 
requires an annual report to Congress on the steps taken to 
protect the highly sensitive information. But we're told few if 
any such reports exist from the CIA. Who knows what information 
needs to be protected and how they are told. Is there a list 
officials can check against? Do CIA briefers know when material 
given to executive branch officials references a covert agent, 
or are they cautioned not to repeat the name? How is it made 
known, and to whom, when the 5-year protection period for 
formerly covert agents has elapsed?
    Those are the questions that need to be asked about the 
safeguards and classified information, but we won't hear from 
the CIA today because this is an open forum.
    Given all that, I suspect we're going to probably waste 
some time talking about things we can't talk about. And that is 
unfortunate. Unfortunate an individual possibly still in a 
covert status was publicly identified, unfortunate executive 
branch officials got anywhere near this media maelstrom rather 
than focus on more serious problems. That is a disappointment 
to me. And unfortunate that this has become so politicized.
    On this side, we're not here to defend or attack anyone. In 
an open session, we hope to shed some sunshine on the workings 
of government. I have to say, I am not sure that's going to 
happen today, but I thank our witnesses for trying. Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T8579.032
    
    [GRAPHIC] [TIFF OMITTED] T8579.033
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    Our first witness is Mrs. Valerie Plame Wilson. She is a 
former covert CIA employee whose service to this country 
included work involving the prevention of the development and 
use of weapons of mass destruction against our Nation. Her 
employment status was publicly disclosed in July 2003, 
effectively terminating her covert job opportunities within the 
CIA.
    Mrs. Wilson, it is the practice of this committee that all 
witnesses are administered an oath, and I would like to ask you 
to stand and raise your right hand.
    [Witness sworn.]
    Chairman Waxman. The record will reflect the fact that the 
witness answered in the affirmative. Before we begin the 
questioning period, I wanted to underscore to members of the 
committee that while it is important that Mrs. Wilson have the 
opportunity to provide testimony that will help us understand 
the significance of the disclosure of her CIA employment 
status, we should not be seeking classified information from 
Mrs. Wilson in this open forum, and we need to respect that she 
may in some cases have to decline to respond on the grounds of 
doing so would risk disclosure of sensitive information.
    Mrs. Wilson, we're pleased to have you here. Thank you very 
much for coming to our committee today. And I want to recognize 
you for an opening statement. There is a button on the base of 
the mic. Be sure to press it in and pull it closely enough to 
you so you can be heard.

  STATEMENT OF VALERIE PLAME WILSON, FORMER EMPLOYEE, CENTRAL 
                      INTELLIGENCE AGENCY

    Mrs. Plame Wilson. Good morning, Mr. Chairman and members 
of the committee. My name is Valerie Plame Wilson and I am 
honored to be invited to testify under oath before the 
Committee on Oversight and Government Reform on the critical 
issue of safeguarding classified information.
    I am grateful for this opportunity to set the record 
straight. I have served the United States loyally and to the 
best of my ability as a covert operations officer for the 
Central Intelligence Agency. I worked on behalf of the national 
security of our country, on behalf of the people of the United 
States, until my name and true affiliation were exposed in the 
national media on July 14, 2003, after a leak by administration 
officials.
    Today I can tell this committee even more. In the run-up to 
the war with Iraq, I worked in the Counterproliferation 
Division of the CIA, still as a covert officer whose 
affiliation with the CIA was classified. I was to discover 
solid intelligence for senior policymakers on Iraq's presumed 
weapons of mass destruction programs. While I helped to manage 
and run secret worldwide operations against this WMD target 
from CIA headquarters in Washington, I also traveled to foreign 
countries on secret missions to find vital intelligence.
    I loved my career because I love my country. I was proud of 
the serious responsibilities entrusted to me as a CIA covert 
operations officer, and I was dedicated to this work. It was 
not common knowledge on the Georgetown cocktail circuit that 
everyone knew where I worked. But all of my efforts on behalf 
of the national security of the United States, all of my 
training, all of the value of my years of service were abruptly 
ended when my name and identity were exposed irresponsibly.
    In the course of the trial of Vice President Cheney's 
former chief of staff, Scooter Libby, I was shocked by the 
evidence that emerged. My name and identity were carelessly and 
recklessly abused by senior government officials in both the 
White House and the State Department. All of them understood 
that I worked for the CIA, and having signed oaths to protect 
national security secrets, they should have been diligent in 
protecting me and every CIA officer.
    The CIA goes to great lengths to protect all of its 
employees, providing at significant taxpayer's expense 
painstakingly devised covers for its most sensitive staffers. 
The harm that is done when a CIA cover is blown is grave, but I 
can't provide details beyond that in this public hearing. But 
the concept is obvious. Not only have breaches of national 
security endangered CIA officers, it has jeopardized and even 
destroyed entire networks of foreign agents who, in turn, risk 
their own lives and those of their families to provide the 
United States with needed intelligence. Lives are literally at 
stake.
    Every single one of my former CIA colleagues, from my 
fellow covert officers to analysts to technical operations 
officers to even the secretaries, understand the 
vulnerabilities of our officers and recognize that the travesty 
of what happened to me could happen to them. We in the CIA 
always know that we might be exposed and threatened by foreign 
enemies. It was a terrible irony that administration officials 
were the ones who destroyed my cover. Furthermore, testimony in 
the criminal trial of Vice President Cheney's former chief of 
staff, who has now been convicted of serious crimes, indicates 
that my exposure arose from purely political motives.
    Within the CIA it is essential that all intelligence be 
evaluated on the basis of its merits and actual credibility. 
National security depends upon it. The trade craft of 
intelligence is not a product of speculation. I feel 
passionately as an intelligence professional about the creeping 
insidious politicizing of our intelligence process. All 
intelligence professionals are dedicated to the idea that they 
would rather be fired on the spot than distort the facts to fit 
a political view, any political view or any ideology.
    As our intelligence agencies go through reorganizations and 
experience the painful aspects of change and our country faces 
profound challenges, injecting partisanship or ideology into 
the equation makes effective and accurate intelligence that 
much more difficult to develop. Politics and ideology must be 
stripped completely from our intelligence services or the 
consequences will be even more severe than they have been and 
our country placed in even greater danger.
    It is imperative for any President to be able to make 
decisions based on intelligence that is unbiased. The Libby 
trial and the events leading to the Iraq War highlight the 
urgent need to restore the highest professional standards of 
intelligence collection and analysis and the protection of our 
officers and operations.
    The Congress has a constitutional duty to defend our 
national security and that includes safeguarding our 
intelligence. That is why I am grateful for this opportunity to 
appear before this committee today and to assist in its 
important work.
    Thank you. And I welcome any questions.
    Chairman Waxman. Thank you very much, Mrs. Wilson. We'll 
now proceed with 10 minutes on each side managed by the Chair 
and the ranking member of the committee. For our first round, I 
want to yield 5 minutes to the gentleman from Kentucky, Mr. 
Yarmuth, to begin the questioning.
    Mr. Yarmuth. Thank you, Mr. Chairman. Thank you for being 
here today, Mrs. Wilson. Our country owes you a great debt of 
gratitude for your service, and I think you are continuing that 
service today by appearing.
    I would like to start by asking you about July 14, 2003, 
the day that Robert Novak wrote the column in the Chicago Sun 
Times, identifying you as an Agency operative on weapons of 
mass destruction.
    But before I get to that, I want to ask you about the day 
before, July 13. My understanding is that on that date, you 
were covert. Is that correct? On July 13?
    Mrs. Plame Wilson. I was a covert officer, correct.
    Mr. Yarmuth. Without destroying--or disclosing classified 
information, what does covert mean?
    Mrs. Plame Wilson. I'm not a lawyer. But my understanding 
is that the CIA is taking affirmative steps to ensure that 
there are no links between the operations officer and the 
Central Intelligence Agency. I mean, that is simple.
    Mr. Yarmuth. And as you said and my understanding is that 
your work was classified for purposes of many regulations in 
the laws, and we're talking about your work was classified on 
that day, July 13.
    Mrs. Plame Wilson. That's correct.
    Mr. Yarmuth. Did the July 14 column destroy your covert 
position and your classified status?
    Mrs. Plame Wilson. Yes, it did. I could no longer perform 
the work for which I had been highly trained. I could no longer 
travel overseas or do the work for which--my career which I 
loved. It was done.
    Mr. Yarmuth. And this may be a simplistic question, but the 
information that was disclosed in Robert Novak's column, is it 
correct to say that is information that you would not have 
disclosed yourself?
    Mrs. Plame Wilson. That is correct.
    Mr. Yarmuth. How did you react when you learned that your 
identity had been disclosed?
    Mrs. Plame Wilson. I found out very early in the morning 
when my husband came in and dropped the newspaper on the bed 
and said, ``He did it.'' And I quickly turned and read the 
article, and I felt like I had been hit in the gut. It was over 
in an instant, and I immediately thought of my family's safety, 
the agents and networks that I had worked with, and everything 
goes through your mind in an instant.
    Mr. Yarmuth. What effect did the leak have on you 
professionally?
    Mrs. Plame Wilson. Professionally? Well, I could no longer 
do the work which I had been trained to do. There was--after 
that, there is no way that you can serve overseas in a covert 
capacity. And so that career path was terminated.
    Mr. Yarmuth. Did the leak make you feel that your entire 
career had been thrown out the window essentially, it had been 
wasted at all?
    Mrs. Plame Wilson. Not wasted, but certainly terminated 
prematurely.
    Mr. Yarmuth. You talked a little bit about your concern 
about the effect of the leak on your professional contacts. Did 
you have any contact with those people who weren't--expressed 
their concern about the effect on their professional career?
    Mrs. Plame Wilson. No, I did not. But I do know the Agency 
did a damage assessment. They did not share it with me. But I 
know that it certainly puts the people and the contacts I had 
all in jeopardy, even if they were completely innocent in 
nature.
    Mr. Yarmuth. And what effect do you think it had at the 
broadest level? I'm talking about for future CIA employees and 
future sources.
    Mrs. Plame Wilson. I think it was--it had a very negative 
effect. If our government cannot even protect my identity, 
future foreign agents who might consider working with the 
Central Intelligence Agency and providing needed intelligence 
would think twice. Well, they can't even protect one of their 
own. How are they going to protect me? As well as the Agency is 
working very hard to attract highly talented young people into 
its ranks, because we do have profound challenges facing our 
country today. And I can't think that helped those efforts.
    Mr. Yarmuth. I can't see the clock, Mr. Chairman. I don't 
know whether my time has expired or not.
    Chairman Waxman. You have 9 seconds.
    Mr. Yarmuth. Well, I will yield back the balance of my 
seconds to you, Chairman. Thank you. Thank you, Mrs. Wilson.
    Chairman Waxman. Thank you Mr. Yarmuth.
    The Chair would now like to yield time to Mr. Hodes, the 
gentleman from New Hampshire.
    Mr. Hodes. Thank you, Mr. Chairman. Mrs. Wilson, thank you 
for coming today. What happened to you is deadly serious. You 
were the victim of a national security breach. If this was a 
law enforcement context, something I am familiar with, it would 
be equivalent to disclosing the identity of an undercover 
police officer who has put his life on the line and the lives 
of all those who helped that officer.
    Our job on this committee is to find out how the breach 
happened. Now, I would like to show you a chart that we 
prepared on the committee. You will see it up on the screens, 
and we're putting it up here on paper. That chart is a graphic 
depiction of all the ways that your classified CIA employment 
was disclosed to White House officials and then to the press. 
Every colored block on that chart is an individual, and every 
arrow shows a disclosure of classified information. That 
classified information was your CIA employment status. And the 
arrows are based on the testimony in Mr. Libby's criminal case 
and press reports. This chart shows over 20 different 
disclosures about your employment.
    Let me ask you, looking at this chart, are you surprised 
that so many people had access to the classified information 
about your CIA employment?
    Mrs. Plame Wilson. Yes, I am, Congressman. And I am also 
surprised at how carelessly they used it.
    Mr. Hodes. What was your expectation about how the 
government would handle the classified information about your 
work and status?
    Mrs. Plame Wilson. My expectation, Congressman, was that--
as of all CIA operations officers, every officer serving 
undercover, that senior government officials would protect our 
identity. We all take oaths to protect classified information 
and national security. So----
    Mr. Hodes. Prior to the time that you learned that your 
status had been disclosed, you never authorized anyone to 
disclose your status, did you?
    Mrs. Plame Wilson. Absolutely not.
    Mr. Hodes. And no one ever approached you and asked for 
permission to disclose any classified information about you?
    Mrs. Plame Wilson. No.
    Mr. Hodes. Vice President Cheney never approached you and 
asked if he had your permission to disclose your status, did 
he?
    Mrs. Plame Wilson. No.
    Mr. Hodes. Karl Rove never approached you and asked whether 
he had your permission to disclose your status, did he?
    Mrs. Plame Wilson. No.
    Mr. Hodes. Now, this isn't even a complete picture because 
as you can see on this chart, we don't know, for example, who 
told Karl Rove your status. There is a black box up there, and 
it says unknown. And there are two arrows from that. One 
pointing to Vice President Cheney and one pointing to Karl 
Rove. So that is an unanswered question right now.
    Now, I can imagine that you have followed the proceedings 
and the press pretty closely over the past few years, have you 
not?
    Mrs. Plame Wilson. Yes.
    Mr. Hodes. Do you have any theories about who told Karl 
Rove about your status?
    Mrs. Plame Wilson. No, I do not. There was much evidence 
introduced in the Libby trial that provides quite a bit, but I 
have no--it would just be guesses.
    Mr. Hodes. Well, that is what this committee's 
investigation is all about, following all the links in the 
chain from their sources to their destination. Now, it has been 
reported that Mr. Rove had a discussion with Chris Matthews 
about you, and the report was that Mr. Rove told Mr. Matthews, 
Valerie Plame is fair game. Do you recall that?
    Mrs. Plame Wilson. Yes, I do.
    Mr. Hodes. I'd like to ask you to forget for a moment that 
he was talking about you. Imagine that he was talking about 
another undercover agent working on sensitive issues, and that 
undercover agent, that undercover agent's life was on the line. 
Do you have a reaction to that?
    Mrs. Plame Wilson. Absolutely. This happened to me, but I 
would like to think I would feel just as passionately if it had 
happened to any of my former colleagues at the CIA.
    Mr. Hodes. One final question. Is there any circumstance 
that you can think of that would justify leaking the name of an 
undercover agent?
    Mrs. Plame Wilson. No, Congressman.
    Mr. Hodes. Thank you very much. I yield back.
    Chairman Waxman. Thank you, Mr. Hodes.
    Before we yield our time, we have a long list of people 
that seem to have either intentionally or advertently passed on 
your status and your name as a CIA agent, and that included the 
President, Vice President, Scooter Libby, Karl Rove, Ari 
Fleisher, just to name a few.
    Did any of those people, the President, the Vice President, 
Karl Rove, Scooter Libby, Ari Fleisher, did any of them ever 
call you and apologize to you?
    Mrs. Plame Wilson. No, Chairman.
    Chairman Waxman. None of them ever called you to express 
regrets?
    Mrs. Plame Wilson. No.
    Chairman Waxman. Thank you. Mr. Davis.
    Mr. Davis of Virginia. Thank you. Thank you, Ms. Plame.
    It's clear that administration officials knew you worked 
for the CIA, but did they know that your status was that of a 
covert agent?
    Mrs. Plame Wilson. I have no way of knowing, but I can say 
I worked for the Counterproliferation Division of the 
Directorate of Operations. And while not all, many of the 
employees of that division are, in fact, in covert status.
    Mr. Davis of Virginia. But you don't have--I think one of 
the issues here was not that you worked for the CIA, because 
that was obviously widely known in the administration, but for 
the crime to have been committed, they had to have known you 
were covert, and you don't have any direct linkage that they 
knew you were covert at that point.
    Mrs. Plame Wilson. Again, Congressman. I am not a lawyer, 
but as I said----
    Mr. Davis of Virginia. You don't have any direct knowledge.
    Mrs. Plame Wilson. No. But as I said in my opening 
comments, the fact that they knew that I worked for the CIA, 
that alone should have increased their level of diligence.
    Mr. Davis of Virginia. Look, we all agree that everybody 
needs to protect national security and protect the identities 
of undercover and covert agents. But should the CIA have done 
more to adequately protect people as well and say these covert 
agents shouldn't be outed? Did the CIA have a responsibility 
here as well?
    Mrs. Plame Wilson. I think that Congress might think about 
reviewing the Intelligence Identities Protection Act and seeing 
what went wrong and where it needs to be perhaps rewritten.
    Mr. Davis of Virginia. I mean,--look, the CIA is supposed 
to report to Congress each year on the steps taken to protect 
this highly sensitive information. And I am told few, if any, 
reports are even filed. So I think there is a responsibility 
from the CIA, and I think what is missing and I think from--at 
least from a criminal perspective, not from a policy but from a 
criminal perspective, that the special prosecutor in this case 
looked at that and found that the people who may have been 
saying this didn't know that you were covert, and you didn't 
have any evidence to the contrary?
    Mrs. Plame Wilson. That, I think, is a question better put 
to the special prosecutor, Congressman.
    Mr. Davis of Virginia. Shouldn't the CIA have made sure 
that anyone who knew your name and your work be told of your 
status? Would that have been helpful in this case? That would 
have made it very clear if anyone leaked it at that point they 
were violating the law at least.
    Mrs. Plame Wilson. The CIA does go to great lengths to 
create and protect all kinds of covers for its officers. There 
is a lot of money and a lot of time and a lot of energy that 
goes into that. And the onus also--the burden falls on the 
officer himself or herself to live that cover, but it is not a 
perfect world.
    Mr. Davis of Virginia. The Intelligence Identities 
Protection Act makes it a crime to knowingly disclose the 
identity of a covert agent, which has a specific definition 
under the act. Did anyone ever tell you that you were so 
designated?
    Mrs. Plame Wilson. I'm not a lawyer.
    Mr. Davis of Virginia. That's why I asked if they told you. 
I'm not asking for your interpretation.
    Mrs. Plame Wilson. No. But I was covert. I did travel 
overseas on secret missions within the last 5 years.
    Mr. Davis of Virginia. I'm not arguing with that. What I am 
asking is, for purposes of the act--and maybe this just never 
occurred to you or anybody else at the time, but did anybody 
say that you were so designated under the act, or was this just 
after it came to fact?
    Mrs. Plame Wilson. No. No one told me that.
    Mr. Davis of Virginia. How about after the disclosure? 
After the disclosure did anyone then say, gee, you were 
designated under the act. This should not have happened. Did 
anyone in the CIA tell you at that point?
    Mrs. Plame Wilson. No.
    Mr. Davis of Virginia. OK. Since the disclosure of your 
identity, have you been offered other positions within the CIA?
    Mrs. Plame Wilson. Yes. I went on to other jobs with 
commensurate responsibility.
    Mr. Davis of Virginia. No demotion or anything? You didn't 
experience any demotion?
    Mrs. Plame Wilson. No.
    Mr. Davis of Virginia. Did anyone at the CIA tell you your 
career path was damaged by the disclosure?
    Mrs. Plame Wilson. Yes.
    Mr. Davis of Virginia. Now, you were a senior manager, a 
GS-14, step 6, eligible for a GS-15 at the time. Did anyone 
ever tell you that you could not advance in a normal career 
path after this exposure?
    Mrs. Plame Wilson. It was very clear that I could not 
advance as a covert operations officer.
    Mr. Davis of Virginia. And would that then--your upward 
career path in terms of getting a GS-15 then was impaired in 
your opinion?
    Mrs. Plame Wilson. No. But that was the career for which I 
had been trained, for which I wanted to do. My husband and I, 
after our children were born, discussed going overseas again 
when they were a little bit older, and all of that came to an 
abrupt end, obviously.
    Mr. Davis of Virginia. Do you know if any of the CIA 
colleagues--like Robert Grimere who testified at the Libby 
trial, that he told administration officials that you were 
involved in sending your husband to Niger--do you know if he 
ever told any of these officials that you were involved?
    Mrs. Plame Wilson. I have no idea other than what he 
testified.
    Mr. Davis of Virginia. OK. When you introduced yourself and 
your husband to the group of IC analysts at the February 19, 
2002 meeting at CIA headquarters, did you tell anybody present 
then you were undercover?
    Mrs. Plame Wilson. No, I did not. I was in CIA 
headquarters. I introduced them and left the meeting, 
Congressman.
    Mr. Davis of Virginia. OK. Would they have known that you 
were--would they have had any reason to have known you were 
undercover or----
    Mrs. Plame Wilson. I believe that they would have assumed 
such.
    Mr. Davis of Virginia. We're limited in what we can ask. So 
we're trying to stay in the confines that the CIA has----
    Mrs. Plame Wilson. I understand.
    Let me just ask, try to put some of the speculation to rest 
and give you an opportunity to answer. In January 2004, Vanity 
Fair published an article, not always known for great accuracy, 
touching on your role in the Niger uranium affair. It said--
this is what they said: In early May, Wilson and Plame attended 
a conference sponsored by the Senate Democratic Policy 
Committee at which Wilson spoke about Iraq--one of the other 
panelists was New York Times journalist Nicholas Kristof--over 
breakfast the next morning. It was Kristof and his wife Wilson 
told about his trip to Niger and said Kristof could write about 
it but not name him. Is that account accurate?
    Mrs. Plame Wilson. I think it is. I had nothing--I was not 
speaking to Mr. Kristof, and I think my husband did say that he 
had undertaken this trip but not to be named as a source.
    Mr. Davis of Virginia. OK. Just to be clear, the article 
says that your husband met for breakfast with Kristof and his 
wife. Just to be clear, were you at the breakfast?
    Mrs. Plame Wilson. Briefly. Yes, Congressman.
    Mr. Davis of Virginia. OK. On June 13, Kristof wrote a 
column about the Niger uranium matter. He wrote that he was 
piecing the story from two people directly involved and two 
others who were briefed on it. Do you know if you were one of 
those people that he was referring to?
    Mrs. Plame Wilson. I can't imagine that I would be. I did 
not speak to him about it.
    Mr. Davis of Virginia. OK. What about your husband? Would 
he have been one of the sources?
    Mrs. Plame Wilson. I think he was speaking to Mr. Kristof 
at that point.
    Mr. Davis of Virginia. OK. Was any of that information 
classified to your knowledge?
    Mrs. Plame Wilson. Not that I am aware of.
    Mr. Davis of Virginia. I yield back at this point.
    Chairman Waxman. Thank you very much.
    Mr. Cummings for 5 minutes.
    Mr. Cummings. Thank you very much.
    Mrs. Wilson, first of all, let me thank you for your 
service. Mrs. Wilson, even today your work for the CIA is so 
highly classified that we're not permitted to discuss the 
details. But we can clarify one crucial point, whether you 
worked under cover for the CIA. You said that your position was 
covert, but I have heard others say that you were not covert. 
In fact, one of the witnesses who will testify a little bit 
later, Victoria Toensing, is making that same argument.
    In an op-ed that appeared in the Washington Post on 
February 18, she says it quite bluntly, she says, ``Plame was 
not covert. She worked at CIA headquarters and had not been 
stationed abroad within 5 years.'' I know there are 
restrictions on what you can say today, but is Ms. Toensing's 
statement correct?
    Mrs. Plame Wilson. Congressman, thank you for the 
opportunity. I know I am here under oath, and I am here to say 
that I was a covert officer of the Central Intelligence Agency. 
Just like a general is a general whether he is in the field in 
Iraq or Afghanistan, when he comes back to the Pentagon, he is 
still a general. In the same way, covert operations officers 
who are serving in the field, when they rotate back for a 
temporary assignment in Washington, they too are still covert.
    Mr. Cummings. Is it possible that Ms. Toensing had more 
information than you do about your work or had access to secret 
documents that you don't?
    Mrs. Plame Wilson. I would find that highly unlikely, 
Congressman, because much of that information about my career 
is still classified.
    Mr. Cummings. On Wednesday night, I know Mr. Waxman, our 
Chair, and Congressman Reyes, the chairman of the House 
Intelligence Committee, spoke personally with General Hayden, 
the head of the CIA. And Chairman Waxman told me that General 
Hayden said clearly and directly, ``Mrs. Wilson was covert.'' 
There was no doubt about it.
    And by the way, the CIA has authorized us to be able to say 
that. In addition, I understand that Chairman Waxman sent his 
opening statement over to the CIA to be cleared and to make 
sure that it was accurate. In it he said, ``Mrs. Wilson was a 
covert employee of the CIA.'' ``Mrs. Wilson was under cover.''
    The CIA cleared these statements. I emphasize all of this 
because I know that there are people who are still trying to 
suggest that what seems absolutely clear isn't really true and 
that you weren't covert. And I think one of the things we need 
to do in this hearing is make sure there isn't any ambiguity on 
this point.
    Just three more questions. Did you hold this covert status 
at the time of the leak, did you? The covert status at the time 
of the leak?
    Mrs. Plame Wilson. Yes, I did, Congressman. Yes.
    Mr. Cummings. No. 2, the Identities Protection Act refers 
to travel outside the United States within the last 5 years. 
Let me ask you this question. Again, we don't want classified 
information, dates, locations or any other details. During the 
past 5 years, Ms. Plame, from today, did you conduct secret 
missions overseas?
    Mrs. Plame Wilson. Yes, I did, Congressman.
    Mr. Cummings. Finally, so as to be clear for the record, 
you were a covert CIA employee and within the past 5 years from 
today, you went on secret missions outside the United States; 
is that correct?
    Mrs. Plame Wilson. That is correct, Congressman.
    Mr. Cummings. I want to thank you, and I hope this 
committee now has cleared up the issue of covert, whether Ms. 
Plame was a covert agent. And I yield back.
    Chairman Waxman. Thank you very much Mr. Cummings. Mr. 
Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. And I am glad 
Mr. Cummings asked those questions because I was going to ask 
them, too.
    Mrs. Wilson, I want to thank you for your service to our 
country. If I seem a little nervous, I have never questioned a 
spy before, and so----
    Mrs. Plame Wilson. I have never testified before.
    Mr. Westmoreland. I'm sorry?
    Mrs. Plame Wilson. I have never testified under oath 
before.
    Mr. Westmoreland. And I was here during the steroid 
hearings too, and I don't think any of those baseball stars got 
this kind of media attention that you are getting today.
    But when the chairman had his opening statements, he used 
three different terms: covert, undercover and classified. Were 
you one of those in particular? Or all of them? Or three 
different terms to categorize, I guess, your service to the 
country?
    Mrs. Plame Wilson. For those of us that were undercover in 
the CIA, we tended to use covert or undercover interchangeably. 
I am not--we typically would not say of ourselves we were in a 
classified position. You are kind of undercover or covert 
employee.
    Mr. Westmoreland. Now, did you just discuss this among 
yourself if you were classified or covert? Because I am 
assuming that you couldn't discuss it with anybody outside the 
Agency. So was it kind of like y'all sat around the break room 
and said, I am covert or I am classified? Or if I was going to 
tell somebody, what I would tell somebody?
    Mrs. Plame Wilson. Yes. Within your colleagues, either 
within the field or at headquarters here in Washington, if you 
were working on a project, sometimes you did need to know, are 
you under cover or are you overt? Let me know. And then you 
know how to treat them accordingly in the sense of how careful 
to be and your association and so forth.
    Mr. Westmoreland. Right. So your fellow CIA employees would 
have known that you were covert or classified or whatever.
    Mrs. Plame Wilson. Oh, absolutely, absolutely.
    Mr. Westmoreland. Did you ever tell anyone that you worked 
for the CIA or was that commonly known that you worked for the 
CIA or did you tell them that you were something else?
    Mrs. Plame Wilson. No, Congressman. I could count on one 
hand the number of people who knew where my true employer was 
the day that I was--my name was and true affiliation was 
exposed in July 2003.
    Mr. Westmoreland. OK. And I'm assuming one of those was 
your husband.
    Mrs. Plame Wilson. That's--yes, he did know.
    Mr. Westmoreland. Did he know if you were covert or 
classified or----
    Mrs. Plame Wilson. He did understand. As a former 
Ambassador and having held security clearances and worked with 
many Agency employees, he understood that world to a certain 
point, and he certainly understood that I was undercover, and 
he protected that diligently.
    Mr. Westmoreland. OK. And this is the one last--are we 
going to have another round of questions, Mr. Waxman, do you 
think? Or----
    Chairman Waxman. Well, we do have other panels. I guess if 
Members wish them.
    Mr. Westmoreland. I mean, I'm just trying----
    Chairman Waxman. You have a minute and 48 seconds.
    Mr. Westmoreland. OK. Ms. Plame, on October 5, 2003, being 
interviewed on Meet the Press, your husband stated that my wife 
will not allow herself to be photographed. In response to the 
picture you took for Vanity Fair, your husband was quoted in 
the Washington Post, the picture should not be able to identify 
her and are not supposed to. She is still employed by the CIA 
and has obligations to her employer. So I guess this was after 
the incident where everybody knew that you worked for the CIA, 
that this was done?
    Mrs. Plame Wilson. Yes, Congressman. At the time that 
picture came out, my covert status was long gone. And I will 
say this: Having lived most of my life very much under the 
radar, my learning curve was steep, and it was more trouble 
than it was worth.
    Mr. Westmoreland. But when the photograph was actually 
taken in Vanity Fair, nobody that was not--that was not public 
knowledge? I mean, all of this was not out then?
    Mrs. Plame Wilson. Oh, Congressman, the picture came out in 
late 2003. My covert status was blown.
    Mr. Westmoreland. OK. If your status was either covert or 
classified and if you did, in fact, meet with the Senate 
Democratic Policy Committee, Mr. Kristof, did you view as part 
of your covert or classified work to meet with political groups 
and a columnist from The New York Times to discuss matters 
within your purview at the CIA? And, you know, I don't know if 
you saw the list of things that we could or could not ask you. 
Did this Democratic Policy Committee and the columnist from the 
New York Times have these same rules that they could or could 
not ask you? Or did you volunteer other information?
    Mrs. Plame Wilson. Congressman, I attended that conference 
simply as a spouse of my husband, who was invited to speak. He 
had been invited to speak because he had quite a bit of 
experience on Iraq, having served the first President Bush as 
the Charg D'Affairs at our Embassy in Baghdad during the first 
Gulf war and negotiated the release of the hostages with Saddam 
Hussein and so forth. And he was asked to attend in that 
capacity. I had no discussions other than purely social in 
nature.
    Chairman Waxman. Thank you, Mr. Westmoreland. Your time has 
expired. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mrs. Wilson, and thank 
you for your service to our country. Briefly, I want to pick up 
on my colleague Mr. Hodes's question. When you look at this 
chart and you see the extraordinary efforts that were made to 
disclose your identity, and most of this information came out 
of the Libby trial, what were you thinking when you saw the 
effort? This wasn't just a leak, was it, in your estimation--
was this simply just a leak of an ID?
    Mrs. Plame Wilson. Quite a bit of evidence came out in the 
course of the Libby trial, and I really was deeply dismayed 
because it just showed a recklessness and a political path that 
is very, very unfortunate.
    Mr. Kucinich. In your judgment, when you look at the chart, 
does it show a fairly organized approach to disclose your 
identity?
    Mrs. Plame Wilson. Well, it certainly is wide-reaching.
    Mr. Kucinich. Because, Mr. Chairman, you know, do leaks 
occur of agents' identities? It does happen?
    Mrs. Plame Wilson. I'm sorry, Congressman?
    Mr. Kucinich. Have there been in the past leaks of an 
agent's identity?
    Mrs. Plame Wilson. None that I am aware of by their very 
own government.
    Mr. Kucinich. And you have never in your experience as an 
agent seen this kind of a coordinated effort by one's own 
government, in this case our government, to disclose the 
identity of an agent?
    Mrs. Plame Wilson. No, Congressman. I am not aware of any.
    Mr. Kucinich. To what extent does the agency go to to 
protect the identities of its agents?
    Mrs. Plame Wilson. Significant effort. And, again, 
taxpayers' money, particularly in this day and age of Google 
and Internet. The efforts have to be even more vigilant and 
ever more creative, because it is extremely easy to find out a 
lot of information about someone if you really want to. So we 
are constant--the CIA constantly needs to be one step ahead to 
protect their operations officers.
    Mr. Kucinich. So when there is an extraordinary effort made 
to disclose the identity of an agent, it is destructive of the 
Agency and it is destructive of the taxpayers' investment in 
the Central Intelligence Agency; is that correct?
    Mrs. Plame Wilson. Absolutely.
    Mr. Kucinich. And one of the things that keeps running 
through my mind is why, why did this happen to you? Was it an 
unintentional mistake or is it part of a larger pattern? In 
recent weeks we've learned that U.S. attorneys in all parts of 
the country were fired despite exemplary service, and several 
of these attorneys testified to Congress that they were being 
pressured to pursue cases against Democratic officials. Others 
believe that they were fired because they were pursuing cases 
against Republican officials. Have you followed this issue?
    Mrs. Plame Wilson. Yes, I have, Congressman.
    Mr. Kucinich. And when I think of what's happened to these 
attorneys, I can't help but think of your case, because these 
could be isolated instances, but they seem to be part of a 
larger pattern. Do you know what happened, for example, with 
the former Treasury Secretary, Mr. O'Neill, when he wrote his 
book The Price of Loyalty?
    Mrs. Plame Wilson. Yes, I am aware of that.
    Mr. Kucinich. And then after Secretary O'Neill wrote that 
the Bush administration was planning to overthrow Saddam 
Hussein in a much earlier timeframe than anyone knew, Secretary 
O'Neill was falsely accused of leaking classified information. 
Did you know that Secretary O'Neill was investigated by the 
Treasury Department for a groundless accusation?
    Mrs. Plame Wilson. I believe I have read that. Yes, sir.
    Mr. Kucinich. Now another instance, General Shinseki warned 
that the United States would need several hundred thousand 
troops in Iraq. Ms. Wilson, do you remember what happened to 
General Shinseki?
    Mrs. Plame Wilson. Yes, I do, Congressman. He was 
dismissed.
    Mr. Kucinich. I will also remind you of the case of Richard 
Foster, the government's chief Medicare actuary. He was 
actually told he would be fired if he told Congress the truth 
about how much the administration's proposed drug benefit would 
cost. Were you aware of that, Ms. Wilson?
    Mrs. Plame Wilson. Yes, I was.
    Mr. Kucinich. Now, again, these could all be isolated 
instances, but they seem to be part of a larger pattern. And I 
am struck by what your husband, Joe Wilson, was quoted as 
saying in the book Hubris.
    Now according to the book, Joe Wilson was upset and said he 
regarded the leak as a warning to others. ``Stories like this 
are not intended to intimidate me, since I have already told my 
story. But it is pretty clearly intended to intimidate others 
who might come forward. You need only look at the stories of 
intelligence analysts who say they've been pressured. They may 
have kids in college who may be vulnerable to these types of 
smears.'' Is this what you think was going on here?
    Mrs. Plame Wilson. When you look at--and I can speak only 
to the realm of intelligence, and you have the politicizing of 
that. Certainly Vice President Cheney's unprecedented number of 
visits to CIA headquarters in the run-up to the war might be 
one example.
    Mr. Kucinich. That's exactly the point. What happens when 
someone is working at the Agency level that people are working 
at when the Vice President visits, the Vice President of the 
United States comes over and starts looking over their 
shoulder. Is that intimidating?
    Mrs. Plame Wilson. Yes, it is.
    Chairman Waxman. Mr. Kucinich, your time has expired.
    Mr. Kucinich. Thank you very much.
    Chairman Waxman. Ms. Watson.
    Ms. Watson. Mr. Chairman, I want to thank you for this 
hearing. It shows our determination to bring out into the open 
the malfeasance in office. I am an ambassador. I have gone 
through the training. I have been blindfolded, put on a C-130, 
taken to a site, taken into a room with my colleagues, just 
like Galactica 3,000, handed a red folder ``highly classified'' 
with a general standing over my shoulder, ``Read it and give it 
back to me.'' Any information that came out of that folder and 
was made public had to come from two sources, the general or 
myself. I was the only woman in the room.
    The men, if their wives asked them said, I could tell you 
but I would have to kill you. So I am very sensitive to how it 
works. And I am furious that your classified information was 
exposed. And Robert Novak of all people.
    Now, I am going to ask you some questions. They might 
appear repetitive. But you are sworn, and I want this for the 
record. Special Prosecutor Patrick Fitzgerald found that at the 
time of Robert Novak's July 14, 2003 column, your employment 
status was classified and that your affiliation with the CIA 
was not common knowledge outside the Intelligence Community. 
The CIA has confirmed to this committee that at the time of Mr. 
Novak's article, your employment status was covert and that 
information was classified.
    But some people are still trying to minimize your service 
by suggesting you really weren't at risk and that your position 
was not classified because you worked at a desk job at the CIA 
headquarters at Langley, Virginia.
    Let me give you an actual example.
    Representative Roy Blunt said on the television program 
Face the Nation, you know, this was a job that the Ambassador's 
wife had that she went to every day. It was a desk job. I think 
many people in Washington understood that her employment was at 
the CIA and she went to that office every day.
    Mrs. Wilson, is it fair to say that based on your service 
for our government, you are well versed in the rules governing 
the handling of classified information?
    Mrs. Plame Wilson. Absolutely, Congresswoman. And I would 
like to just add that when operations officers, when they are 
posted in the field or back at headquarters, we are given 
training to understand--surveillance detection training so that 
we understand very carefully that we are not being followed and 
that we feel very comfortable that our status can be protected.
    Ms. Watson. That is the reason why I started off with my 
own scenario.
    Is it your understanding that the Executive order governing 
the safeguarding of classified information prohibits the 
disclosure of classified information to persons who are not 
authorized to receive this information?
    Mrs. Plame Wilson. Yes. Correct.
    Ms. Watson. ``Yes'' is the answer?
    Mrs. Plame Wilson. Yes, Congresswoman.
    Ms. Watson. And is it your understanding that when an 
employee at the CIA is undercover, that individual's employment 
status at the CIA is considered classified information?
    Mrs. Plame Wilson. Yes, it is.
    Ms. Watson. Are you aware of any desk job exception to the 
rules prohibiting the release of--release on information on the 
employment status of a CIA employee?
    Mrs. Plame Wilson. No, Congresswoman.
    Ms. Watson. So I think your testimony underscores the 
efforts to minimize the significance of the disclosure of your 
employment status or, in effect, minimizing the importance of 
the classified information, rules designed to protect our 
national security. And I am infuriated to continue to hear, 
``She just had a desk job,'' because I understand, I have been 
there, I have had the training, and I want to thank you 
sincerely for the work that you have done in regards to the 
protection of Homeland Security and showing the love for this 
country.
    Thank you very much.
    Mrs. Plame Wilson. Thank you, Congresswoman.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Lynch.
    Mr. Lynch. Thank you. First of all, I want to thank you, 
Ms. Plame, for coming before this committee and helping us with 
our work, and for your service to our country. I have to say 
this hearing has been a long time in coming. The chairman and I 
and the members of this committee have signed five or six 
requests over the last 4 years to try to get you before us and 
to get to the bottom of this.
    What has happened to you needs to be taken in a wider 
context, however. The two issues, two of the major issues here 
are, one, the process by which Congress receives information 
relative to national security. And as you know, your outing, if 
you will, or the disclosure of your covert status was, I think, 
a deliberate attempt to discount the statements of your husband 
with respect to the supposed attempts by Saddam Hussein to 
purchase uranium or plutonium through Niger. And, evidently 
from this chart, there were 20 occasions in which people 
deliberately, I think, attempted to destroy your credibility 
and also to destroy your effectiveness within the organization, 
within the CIA.
    And I know you have been very careful with your words. Once 
or twice might be a careless disclosure. Five or six times 
might be reckless, but 20 times--I will say it, 20 times is a 
deliberate attempt to destroy your status as a covert agent.
    And the only other major case in which we have had the 
outing of CIA agents, such as the Supreme Court in Haig v. 
Agee, said ``It is obvious and inarguable that no governmental 
interest is more compelling than the security of the Nation.''
    And going to those couple of issues, first of all, the 
integrity of the process by which we get our information was 
affected greatly, I think, in the terms of other agents may 
have been very disheartened and troubled by what happened to 
you. And in an effort to discount your husband's credibility, 
the question was raised, and it has been continually raised, of 
whether you were involved in the decision by the CIA to 
actually send your husband, Ambassador Joseph Wilson, to Niger 
in February 2002 to obtain information on the allegations that 
Iraq sought uranium from Niger--they sort of said, ``Oh, her. 
His wife sent him,'' like my wife sends me out to put out the 
trash, you know--tried to discount the import of that. At least 
I admit it.
    Now I want to ask you, the suggestion that you were 
involved in sending your husband seemed to drive the leaks in 
an effort to discount his credibility. I want to ask you now 
under oath, did you make the decision to send Ambassador Wilson 
to Niger?
    Mrs. Plame Wilson. No. I did not recommend him. I did not 
suggest him. There was no nepotism involved. I didn't have the 
authority. And, Congressman, if you will allow me briefly to 
just lay out the sequence of events.
    Mr. Lynch. That was my next question, if you would. I sort 
of doubted this. If I was going to send my wife somewhere, it 
wouldn't be Niger. But--nobody goes to Niger.
    But, please, if you could lay out, walk us through 
everything you did that may have been related around the time 
of the decision to send Ambassador Wilson to Niger.
    Mrs. Plame Wilson. Thank you, Congressman. I am delighted 
as well that I am under oath as I reply to you.
    In February 2002, a young junior officer who worked for me 
came to me very concerned, very upset. She had just received a 
telephone call on her desk from someone, I don't know who, in 
the Office of the Vice President, asking about this report of 
this alleged sale of yellow cake uranium from Niger to Iraq.
    She came to me, and as she was telling me this, what had 
just happened, someone passed by. Another officer heard this. 
He knew that Joe had already--my husband had already gone on 
some CIA missions previously to deal with other nuclear 
matters. And he suggested well, why don't we send Joe?
    He knew that Joe had many years of experience on the 
African continent. He also knew that he had served, and served 
well and heroically, in the Baghdad Embassy, the Embassy in 
Baghdad during the first Gulf war.
    And I will be honest, I was somewhat ambivalent. At the 
time, we had 2-year-old twins at home, and all I could envision 
was me by myself at bedtime with a couple of 2-year-olds. So I 
wasn't--I wasn't overjoyed with this idea.
    Nevertheless, we went to my branch chief, our supervisor. 
My colleague suggested this idea, and my supervisor turned to 
me and said, ``Well, when you go home this evening, would you 
be willing to speak to your husband, ask him to come in to 
headquarters next week and we will discuss the options? See if 
this--what we could do.'' Of course. And as I was leaving, he 
asked me to draft a quick e-mail to the chief of our 
Counterproliferation Division letting him know that this was--
might happen. I said, ``Of course.''
    And it was that e-mail, Congressman, that was taken out of 
context, a portion of which you see in the Senate Select 
Committee on Intelligence report of July 2004 that makes it 
seem as though I had suggested or recommended him.
    Mr. Lynch. If I could followup because--just 30 seconds.
    Chairman Waxman. Without objection.
    Mr. Lynch. And I want to go back to that Senate 
Intelligence Committee hearing.
    There were three Republican Senators who included a more 
definitive statement, it said, ``The plan to send the former 
Ambassador to Niger was suggested by the former Ambassador's 
wife, a CIA employee.''
    What is your reaction to that statement in the Senate 
report about the genesis of your husband's trip to Niger in 
2002?
    Mrs. Plame Wilson. Congressman, it is incorrect. It has 
been borne out in the testimony during the Libby trial. And I 
can tell you that it just doesn't square with the facts. Those 
additional views were written exclusively by three Republican 
Senators.
    Mr. Lynch. Thank you, Mr. Chairman. I yield back.
    Chairman Waxman. Thank you, Mr. Lynch.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. I am going to yield 
my time to Mr. Van Hollen.
    Chairman Waxman. Mr. Van Hollen is recognized for 5 
minutes.
    Mr. Van Hollen. Thank you very much, Mr. Yarmuth and Mr. 
Chairman.
    Ms. Plame, thank you for your service to our country and 
your testimony here today.
    Just to remind us all of the larger context in which this 
happened and the lead-up to the war, we remember many 
statements from the President of the United States, the Vice 
President of the United States, Secretary of State Condoleezza 
Rice, others, about mushroom clouds and invoking the image that 
Saddam Hussein was going to be obtaining nuclear weapons and 
using them in terrorist attacks.
    So when Ambassador Wilson wrote his article in the New York 
Times that began with this statement, ``Did the Bush 
administration manipulate intelligence about Saddam Hussein's 
weapons program to justify invasion of Iraq,'' and answered 
that question in the following sentence, ``Based on my 
experience with the administration, in the months leading up to 
the war, I have little choice but to conclude some of the 
intelligence relating to Iraq's nuclear intelligence program 
was twisted to exaggerate the Iraqi threat. That posed a direct 
threat to the administration's credibility.'' And clearly they 
understood the danger of that because it undercut one of the 
main underpinnings and justifications the administration gave 
for the war.
    And we see from the chart here that the White House did 
spring into action and begin to try and discredit your husband, 
and that is how you were drawn into this web.
    Mr. McClellan, then-White House spokesman, said, ``On 
behalf of the administration, on behalf of the President, if 
any one in this administration was involved in it,'' meaning 
the leaks and the dissemination of information, ``they would no 
longer be in this administration.''
    Do you believe there continue to be people, individuals in 
this administration, who were involved in leaking information 
about you?
    Mrs. Plame Wilson. Yes, Congressman. As we know, again, 
from the evidence that was introduced at the trial of the Vice 
President's former chief of staff, for one, Karl Rove clearly 
was involved in the leaking of my name, and he still carries a 
security clearance to this date, despite the President's words 
to the contrary that he would immediately dismiss anyone who 
had anything to do with this.
    Mr. Van Hollen. And the CIA spokesman made a statement, and 
other intelligence officers have made the statements that we 
have today, that the failure to hold people accountable for 
leaking this kind of information sends a very terrible message 
to others in the intelligence field.
    Do you think the failure of the President to fire the 
people in his administration who were involved with this 
message sends a chilling message to those in the intelligence 
agencies, that the White House is not willing to stand up 
behind those people who are putting their lives at danger every 
day?
    Mrs. Plame Wilson. Yes. I believe it undermines the 
President's words.
    Mr. Van Hollen. Let me ask you this. And I would just say 
on the record, with the statements that were made at trial with 
respect to Karl Rove's involvement, I would just state the 
testimony given by Mr. Cooper of Time Magazine, who said that 
he was told by Karl Rove, ``Don't go too far out on Wilson.'' 
That Mr. Wilson's wife worked at the, ``Agency.'' And at the 
conclusion of the conversation, according to Mr. Cooper, Mr. 
Rove said, ``I have already said too much.''
    Can you think of any reason that Mr. Rove would make that 
statement if he did not know that he was engaged in wrongdoing?
    Mrs. Plame Wilson. Congressman, I cannot--I cannot begin to 
speculate on Mr. Rove's intent. I just know what his words were 
and the effects.
    Mr. Van Hollen. Thank you.
    Let me followup briefly on Mr. Lynch's line of questioning 
regarding the Senate report and who really had Ambassador 
Wilson sent to Niger and who was the instigator of that.
    The unclassified Senate report asserts that the 
Counterproliferation Division report officer told the committee 
staff that the former Ambassador's wife, you, offered up his 
name. Are you familiar with that statement in the 
unclassified----
    Mrs. Plame Wilson. Yes, I am.
    Mr. Van Hollen. Now, we don't want to reveal, and we don't 
want you to reveal any classified information or anyone's 
identity, but have you talked with that CPD reports officer who 
was interviewed by the Senate committee?
    Mrs. Plame Wilson. Yes, Congressman. And I can tell you 
that he came to me almost with tears in his eyes. He said his 
words had been twisted and distorted. He wrote a memo, and he 
asked his supervisor to allow him to be reinterviewed by the 
committee. And the memo went nowhere, and his request to be 
reinterviewed so that the record could be set straight was 
denied.
    Mr. Van Hollen. Just so I understand, Mr. Chairman, if I 
could.
    So there is a memo written by the CPD officer upon whose 
alleged testimony in the Senate report that contradicts the 
conclusions in that report.
    Mrs. Plame Wilson. Absolutely. Yes, sir.
    Mr. Van Hollen. Mr. Chairman, it seems to me that this 
committee should ask for that memo. It bears directly on the 
credibility of the Senate report on this very, very important 
issue that they have attempted to use to discredit Ambassador 
Wilson's mission.
    Chairman Waxman. I think the gentleman makes an excellent 
point, and we will insist on getting that memo.
    Mr. Van Hollen. Thank you. Thank you for your testimony.
    Chairman Waxman. Mr. Hodes, you are next.
    Mr. Hodes. Thank you, Mr. Chairman. I reserve my time. I 
yield back.
    Chairman Waxman. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Ms. Wilson, thanks for being here today. I know this can't 
be easy for you.
    If you put this affair in context, what has happened with 
you, with all of the other abuses, frankly, Mr. Chairman, that 
we have been investigating over the last 7 weeks--and I thank 
you for the diligence of your inquiry and fairness of your 
inquiry into a number of the things that have occurred--it 
paints a picture of an administration of bullies, in my view. 
The things that--in order to achieve whatever the ends they are 
seeking, any means can be justified and that people can just be 
pushed around.
    We saw it when we had testimony of people in the White 
House who bullied the scientific community by altering 
testimony on global warming. We have seen it in terms of the 
investigations you have done, Mr. Chairman, with respect to the 
treatment of our Civil Service. Now we see it in context of our 
Intelligence Community.
    And to me what you have experienced is really the result of 
the syndrome that has developed in this administration which 
reflects the arrogance of power run amok.
    I have just a couple of questions that I wanted to ask you 
in that vein.
    First of all, I gather you believe that the outing of your 
status, the blowing of your covert status, was as a result of 
some of the statements that your husband was making and the 
challenges that he was bringing; is that right?
    Mrs. Plame Wilson. Yes. I believe that was one of the 
consequences.
    Mr. Sarbanes. OK. But at the point that they were prepared 
to surrender your covert status to the public, I mean, what was 
to be gained by that? I mean, can you--was it to apply further 
leverage? I mean, really it was sort of after the fact at that 
point, right?
    Mrs. Plame Wilson. My thinking, Congressman, is that by 
continuing to assert falsely that I somehow suggested him or 
recommended him for this mission, it would undercut the 
credibility of what he was saying. And that is--that is what I 
think has happened. And it just got a little out of hand.
    Mr. Sarbanes. It strikes me as petulant behavior on their 
part.
    Second, there is a suggestion being made that your status 
could have been divulged sort of accidentally. But you have 
described efforts, structural efforts, that are designed to 
make sure that this doesn't happen accidentally. And so could 
you comment on that?
    I mean, it seems to me that in order for your status to 
have been disclosed, somebody had to want that to happen. In 
other words, the way things were set up, it is highly unlikely 
that your status would be disclosed by accident. It had to be 
as a result of an orchestrated effort that somebody wanted to 
put it out there.
    Can you talk about sort of structurally, whether that is 
the case?
    Mrs. Plame Wilson. I can't speak to intent, but I can speak 
to simply what the actions that we can observe, and that, 
again, they all knew that I worked in the CIA. They might not 
have known what my status was. But that alone, the fact that I 
worked at the CIA, should have put up a red flag that they 
acted in a much more protective way of my identity and true 
employer.
    Mr. Sarbanes. And then last, again, I'm trying to get--
because this is more than--it's more than a story about Valerie 
Plame Wilson and what happened to you, as devastating as it has 
been to your life over these last period of months. It's about 
our Intelligence Community. And you spoke yourself to how this 
kind of conduct can affect the integrity and effectiveness of 
our intelligence apparatus.
    Can you comment on the chilling effect, if you will, on 
what the message it sends to people, to those, for example, who 
would be sent on a mission to collect intelligence about a 
subject that the White House might already have a very strong 
opinion about. How would it affect the way that agent, the way 
that person would check that information and get that 
information back up the chain?
    Mrs. Plame Wilson. Intelligence collection is certainly 
more an art than a science, but if there is any taint of bias, 
then it undermines its usefulness. The primary customer of our 
intelligence is, of course, the President of the United States. 
And if the President of the United States thinks somehow--or 
doesn't believe that his intelligence that he receives on his 
desk, he or she receives on his desk every morning, is free of 
ideology, politics, a certain viewpoint, how then can that 
President make the most important decisions of all about the 
security of our country? I mean, that is--I do feel 
passionately about that. You have to get the politics out of 
our intelligence process.
    Mr. Sarbanes. I appreciate that. I appreciate the passion 
that you brought to your job. And you represent hundreds of 
thousands of people that go to work and try to make a 
difference for this country and I think are being bullied by 
this administration. You won't get the policy from them that 
you deserve. But I want you to know that everyone here 
appreciates your service.
    Thank you very much.
    Chairman Waxman. We have gone back and forth, and, rather 
than a second round, Mr. Davis and I have agreed that we will 
have 5 minutes wrap-up on each side; 5 minutes will be 
controlled by the chairman and the ranking member.
    And I would yield 5 minutes to Mr. Davis at this point.
    Mr. Davis of Virginia. I yield to Mr. Westmoreland such 
time as he would consume.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Chairman, I hate it that we are not going to stay here 
to get all of our questions answered by Ms. Wilson, because I 
have so many to ask, because there is so many conflicting 
reports. And I think that with something of this importance, 
that we should have made a little more time for it.
    But Ms. Wilson, the Counterproliferation Division of the 
CIA, that seems like a pretty important place where a bunch of 
smart people would work and keep good records. Would that--
would I be OK in thinking that?
    Mrs. Plame Wilson. Yes, Congressman.
    Mr. Westmoreland. But in the Senate Intel report that I 
have that says some CPD officials could not recall how the 
Office decided to contact the former Ambassador, was this a 
voluntary lack of memory or were there no notes kept on it? Is 
it--how could they forget how they came about a name that they 
were fixing to send to a foreign country to check on the 
intelligence of Iraq getting material to build nuclear bombs? 
That seems a little bit far-fetched to me.
    Mrs. Plame Wilson. Congressman, please remember that in 
this period in the run-up to the war, we in the 
Counterproliferation Division of the CIA were working flat-out 
as hard as we could to try to find good, solid intelligence for 
our senior policymakers on these presumed programs.
    My role in this was to go home that night without revealing 
any classified information, of course, and ask my husband would 
he be willing to come into CIA headquarters the following week 
and talk to the people there. At that meeting, I introduced him 
and I left, because I did have a hundred and one other things I 
needed to do.
    Mr. Westmoreland. But what I'm trying to say is do you 
think there would not have been a paper trail of how his name 
came about, who would have--who would have mentioned it first 
or--I mean, to me that is a pretty important assignment to give 
somebody; and, you know, maybe somebody would want to say 
``Hey, that was my idea. That was my guy that I was sending 
over there,'' and want to take credit for it. But it seems like 
everybody is running from it.
    Mrs. Plame Wilson. Congressman, I believe one of the pieces 
of evidence that was introduced in the Libby trial was an INR 
memo of that meeting where it states, in fact, my husband was 
not particularly looking forward to--he didn't think it was 
necessary. There had been, I believe, at least two other 
reports, one by a three-star general and one by the Ambassador 
there on the ground who said there wasn't really much of this 
allegation. And the INR folks that attended the meeting also 
said well, we are not sure that this is really necessary.
    But it was ultimately decided that he would go, use his 
contacts, which were extensive in the government, to see if 
there was anything more to this. It was a serious question 
asked by the Office of the Vice President and it deserved a 
serious answer.
    Mr. Westmoreland. Are you familiar with a Charles Grimere 
that was the former Iraq mission manager for the CIA?
    Mrs. Plame Wilson. I know of him, sir, yes.
    Mr. Westmoreland. He testified in the Libby trial that all 
he had heard is that you were working for this 
Counterproliferation Division, and it could have been a number 
of things that different people, I guess, look at this, some 
covert, some classified, some undercover, some different names.
    Is that true that there are different classifications of 
people that work at this Counterproliferation Division?
    Mrs. Plame Wilson. What I would say that's most accurate is 
most of the employees at the Counterproliferation Division are 
undercover of some sort.
    Mr. Westmoreland. But he did work for the CIA so he should 
have known that you were undercover or classified or----
    Mrs. Plame Wilson. I am saying that the fact was that most 
people in the Counterproliferation Division were undercover. I 
can't speak to what he should have or should have not known--
were probably cognizant of that, yes, sir.
    Mr. Westmoreland. And you mentioned taking politics out of 
intelligence. And your husband--would you say he was a Democrat 
or a Republican?
    Mrs. Plame Wilson. Although my husband comes from a 
Republican family with deep roots in California, I would say he 
is a Democrat now, Congressman.
    Mr. Westmoreland. OK. And just to kind of keep score, not 
that you would put yourself in any political category, would 
you say you are a Democrat or a Republican?
    Mrs. Plame Wilson. Congressman, I am not sure that is----
    Mr. Westmoreland. I know. But I gave a list of questions I 
couldn't ask you, and that wasn't one of them, so I didn't know 
if you would be willing to----
    Mrs. Plame Wilson. Yes, Congressman. I am a Democrat.
    Mr. Westmoreland. You are a Democrat.
    Mrs. Plame Wilson. Yes, I am.
    Mr. Westmoreland. So the Vice President, who is a 
Republican, who evidently thought from his CIA briefing that he 
had gotten 1 day, felt like that this needed to be looked at 
further, the report that Niger was selling this yellow cake 
uranium to Iraq, that he would get some further intel on it. 
They called the Counterproliferation--or at least somebody in 
the CIA--and then we had a Democrat or at least supposedly 
someone who may be affiliated on the Democratic side--represent 
her, or present or supposedly present or at least vouch for her 
husband who was--who had come from a good Republican family 
that had lost his way and became a Democrat.
    But my point is, in his piece titled, ``What I Didn't Find 
in Africa,'' he disputes the Bush administration's claims of 
there was no evidence that Niger was selling it. But you, 
coming from an intelligence background, you don't just depend 
on one report from one country or one source to base all your 
intelligence on, do you? Wouldn't you gather it from a bunch of 
different sources and then kind of put it together and look at 
it and not just one from----
    Mrs. Plame Wilson. That is correct, Congressman.
    Chairman Waxman. The gentleman's time has expired.
    Do you have a last question that you want to ask?
    Mr. Westmoreland. No.
    I guess, Mr. Chairman, my last comment would be to you that 
I still think it is a shame that--we have Ms. Wilson here and 
all of the press came and all of these good people came to 
witness all of this, and it's been quite a spectacle--that we 
wouldn't get to ask all of the questions that we had.
    Mr. Davis of Virginia. I think what is clear here is, first 
of all, it is a terrible thing that any CIA operative would be 
outed. But what is difficult, I think, what we haven't been 
able to establish is who knew who was undercover and who was in 
a covert status. And I think we would have to look at that. But 
if there is no evidence here that the people that were outing 
this and pursuing this, had knowledge of the covert status--And 
so I just wanted to make that point.
    Mrs. Plame Wilson. Thank you, Congressman.
    Chairman Waxman. Thank you, Mr. Davis.
    I want to yield to Ms. Norton for 5 minutes.
    Ms. Norton. Thank you very much. And thank you, Ms. Wilson, 
as others have thanked you for your extraordinary service to 
our country.
    I am trying to understand the effect of the Executive 
order, because there is an Executive order that is Executive 
Order 12958. It is an Executive order, a Presidential Executive 
order, that indicates what authorized--what the requirements 
are to prevent unauthorized disclosures.
    And in summary, they are background checks, official need 
to know. I am particularly interested in the official need to 
know.
    And I ask you to look at the middle chart, the middle part 
of the chart on there where the White House and other 
officials, State Department officials, are listed.
    Can you think of any reason that any of those officials 
would have had a reason to know your identity, in particular, 
as a covert agent?
    Mrs. Plame Wilson. Congresswoman, there was no need to know 
my specific identity other than I was a CIA officer, according 
to that chart. None whatsoever.
    Ms. Norton. Could I ask you whether there is any difference 
in your review between disclosing the identity of a covert 
agent and disclosing classified information, what if any 
difference would there be?
    Mrs. Plame Wilson. I think damage in either case could be 
equally devastating. It would simply depend on what the 
classified information was. But certainly revealing an 
operative's true identity is devastating. In my case, I was 
working on trying to find the Iraq weapons of mass destruction 
programs and what they were up to.
    Ms. Norton. I suppose we could all think of classified 
information involving our country that would have a devastating 
effect on all of us.
    Disclosing the name of a classified agent might have a 
devastating effect on more than that agent's career; is that 
not the case?
    Mrs. Plame Wilson. Absolutely, Congresswoman.
    The ripple effects go outward in quite wide circles. There 
are all of the contacts through the years as either innocent or 
in a professional manner. The agents, the networks. Much is 
taken out.
    Ms. Norton. Are there circumstances under which disclosing 
the identity of a covert agent could result in the death of 
that agent, and hasn't that occurred before in our country's 
history?
    Mrs. Plame Wilson. Yes, it has.
    Ms. Norton. If, in fact, an official of any kind did not 
have an official reason to know your status, in your view would 
that be a violation of the Executive order which lists official 
need to know as a reason for having classified information?
    Mrs. Plame Wilson. Yes, Congresswoman. I would think so.
    Ms. Norton. So you think it would be.
    Mrs. Plame Wilson. It would be a violation.
    Ms. Norton. One of my colleagues questioned you regarding 
the accusation that over and over again was repeated in the 
press, and, for that matter, by a number of public officials, 
that it was you who was responsible for your husband's being 
selected to go on the controversial trip at issue.
    As I understand it, that person has indeed said that he was 
not the person who indicated that you had been responsible for 
the selection of your husband to go to Niger.
    If that is the case, would you say that it would be 
inappropriate for us or others to rely on the information that 
a CIA official had said that you were responsible for the 
selection of your husband to go to Niger?
    Mrs. Plame Wilson. That is incorrect. A senior Agency 
officer said she had nothing to do with his trip. And I would 
just like to add that certainly I had no political agenda at 
the time of my husband's trip. Joe had no political agenda. We 
were both looking to serve our country.
    Ms. Norton. Mr. Chairman, I understand that the CIA 
official to which I refer has in fact said that in writing, and 
I ask that you try to get the memorandum of that official that 
would make it clear that he or she was not responsible for this 
information.
    Chairman Waxman. We will try to get that information and 
hold it for the record.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Waxman. Mr. Davis.
    Mr. Davis of Virginia. Let me clarify one thing. You noted 
that when you learned about this, your husband picked up the 
paper and said, ``He did it.'' Do you remember your testimony 
today? ``He did it.'' Was he referring to Novak? Was he 
referring to the administration? And did you know this was 
percolating?
    Mrs. Plame Wilson. Yes, sir. He was referring to Mr. Novak. 
We had indications in the week prior that Mr. Novak knew my 
identity and my true employer. And I, of course, alerted my 
superiors at the Agency, and I was told don't worry, we will 
take care of it. And it was much to our surprise that we read 
about this July 14th.
    Mr. Davis of Virginia. Do you know if your superiors at the 
Agency did anything at that point to stop the outing of a CIA 
agent? It would seem to me they would have picked up the phone 
to say this is a serious matter, this is a crime. Do you have 
any idea?
    Mrs. Plame Wilson. Absolutely. This is what I believe and 
this is what I read, that then-spokesman Mr. Harlow spoke 
directly to Mr. Novak and said something along the lines of, 
``Don't go with this. Don't do this.'' I don't know exactly 
what he said. But he clearly communicated the message that Mr. 
Novak should not publish my name.
    Mr. Davis of Virginia. And you don't know if he said this 
could be a violation of law, she is a covert operator or 
anything like that.
    Mrs. Plame Wilson. I have no idea.
    Mr. Davis of Virginia. One of the long-term concerns 
outside of the--I mean, the outing of an agent is very serious 
business which I think has been underscored by both sides. But 
if no one knows that you're covert, it's hard at that point to 
show any violation of law and the like. But if you have notice, 
that's a different issue.
    And so you did the appropriate thing in notifying your 
superiors that this was percolating, and they were not able to 
stop it. Is that your testimony?
    Mrs. Plame Wilson. That is correct.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Mrs. Wilson, you can be a Democrat, you 
can be a Republican. No one asks our servicemen or CIA 
operatives what they believe in in terms of their politics to 
go out and serve their country. They are not acting as 
Democrats or Republicans. They and you were acting as 
Americans.
    Facts are not Republican or Democratic. Your husband 
revealed the falsehood of the reason the President gave to go 
to war against Saddam Hussein in Iraq. And the reason he gave, 
even in his State of the Union address, was that the weapon of 
mass destruction that Saddam Hussein had, or would soon have, 
is a nuclear bomb. That was very sobering, but it was false.
    Mrs. Plame Wilson. Uh-huh.
    Chairman Waxman. And when your husband wrote the article, 
that went right to the heart of this claim.
    So one could see why they wouldn't like what your husband 
wrote. But they made you collateral damage. Your career was 
ended. Your life may have been in jeopardy. And they didn't 
seem to care, even to this point, because you said they haven't 
even called to apologize.
    Now, whether they knew it and intentionally gave out this 
information about your status is the reason for this 
investigation. If they knew it then, that you were a covert 
undercover agent, and they disclosed that fact, that is a big 
deal. That is a serious jeopardizing of our national security.
    If they didn't know you were an undercover covert agent, 
then I have to wonder in my mind what was their thinking. That 
this guy couldn't be right because his wife had something to do 
with the mission? Boy, is that sort of silly.
    Either way, I don't think it speaks well for all of those 
people in the White House to have gone out of their way to let 
the press know this information which was the only, I guess, 
the only thing they had to say.
    The President has finally acknowledged the statement that 
your husband pointed out was factually incorrect. The President 
has acknowledged it was factually incorrect. The Secretary of 
State said the CIA didn't tell her, but it turned out that her 
chief deputy did get informed, Mr. Hadley, that the statement 
was not correct; that they were putting it into the State of 
the Union address, the most vetted speech a President ever 
makes. They acknowledged the validity of your husband's 
statement. And what do we have for you? Well, just collateral 
damage.
    I find that troubling that in the zeal for their political 
positioning, that there are a lot of collateral damage around, 
including a war that didn't have to be fought.
    I want to thank you very much for your presence here. I 
think it has been helpful, and we are going to continue this 
investigation.
    Ms. Watson. A question to the Chair.
    Chairman Waxman. Yes.
    Ms. Watson. The first, I think, most of us knew about 
Valerie Plame as being an undercover agent was through Robert 
Novak's July 14, 2003 column. Is it possible, as we continue 
our oversight function, to have Mr. Novak under oath come in 
and testify to the fact that he did print that information?
    Chairman Waxman. Well, I think we know that he did print 
that information and that we know now she was a covert agent. I 
have many--I will give it some thought. But I want to 
underscore that we need an investigation. This is not about 
Scooter Libby, and it's not just about Valerie Plame Wilson. It 
is about the integrity of our national security and whether it 
is being jeopardized.
    Mr. Davis of Virginia. I think if you do that, we--you need 
to involve the CIA, because there is no evidence here that 
anyone out there had any idea that she was an undercover agent, 
that she was a covert agent at this point.
    Chairman Waxman. You may well be right. But the CIA did.
    Mr. Davis of Virginia. And, in fact, she did the 
appropriate thing in going to her superiors when she found out 
that she was about to be outed.
    I would have thought at that point, if the CIA felt one of 
their operatives were going to be outed, they would have gone 
to great lengths to try to kill the story and let them know 
what the law was.
    Chairman Waxman. That is a very good point, and I think we 
need to get----
    Mr. Davis of Virginia. In the President's speech--and I 
have to say this--in the President's speech when he mentioned 
the uranium, those words were cleared by the CIA. It may not 
have been in accordance with what Mr. Wilson found, but Ms. 
Plame's boss approved that. And I think the record should 
reflect that.
    Chairman Waxman. Before I call on anybody else.
    Yes, Mr. Hodes.
    Mr. Hodes. Just very briefly. The suggestion about what we 
don't know cannot be finally determined until we pursue the 
investigation that we need to pursue and find out what the 
people on this chart knew and when they knew it, who the 
unknown person or persons are, and we need an investigation.
    Mr. Davis of Virginia. We had a special prosecutor who did 
this, Mr. Hodes. The special prosecutor looked at this and 
spent 2 years on this.
    Chairman Waxman. This is a hearing to get information from 
witnesses, not to debate, although it is inevitable. But let 
us, I think, move on with our hearing.
    I thank all of the Members for their participation. I wish 
we had all of the Members here to participate, but all of those 
Members were invited and had adequate notice, but this is a 
Friday.
    Thank you so much for being here.
    Mrs. Plame Wilson. Thank you, Mr. Chairman.
    Chairman Waxman. We are going to recess for 4 or 5 minutes 
just so we can settle down and get the next witnesses up and 
take care of whatever pressing matters that need to be attended 
to.
    [Recess.]
    Chairman Waxman. The committee will come back to order.
    I am pleased to welcome our next two witnesses. Dr. James 
Knodell is the security officer for the Executive Office of the 
President. According to GAO, this position is, ``responsible 
for formulating and directing the execution of security policy, 
reviewing and evaluating Executive Office of the President 
security programs, and conducting security indoctrinations and 
debriefings for agencies of the Executive Office of the 
President.''
    Mr. Bill Leonard is the Director of the Information 
Security Oversight Office at the National Archives and Records 
Administration. This office is charged with developing security 
classification policies for classifying, declassifying, and 
safeguarding security information generated in government and 
industry, and evaluating the effectiveness of the security 
classification programs developed by government and industry.
    And I want to welcome both of you to our hearing today.
    Your prepared statements are going to be in the record in 
its entirety, and we are going to ask you to keep your oral 
presentation to around 5 minutes or try to keep it under 5 
minutes.
    It is the practice of this committee to swear in all 
witnesses, so if you will please rise.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that the 
witnesses answered in the affirmative.
    Mr. Knodell, why don't we start with you?

  STATEMENTS OF JAMES KNODELL, DIRECTOR, OFFICE OF SECURITY, 
EXECUTIVE OFFICE OF THE PRESIDENT, THE WHITE HOUSE; AND WILLIAM 
   LEONARD, DIRECTOR, INFORMATION SECURITY OVERSIGHT OFFICE, 
          NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                   STATEMENT OF JAMES KNODELL

    Mr. Knodell. Thank you, Mr. Chairman.
    My name is James Knodell. I am the Chief Security Officer 
for the Office of Security and Emergency Preparedness, Office 
of Administration, Executive Office of the President.
    The Office of Security and Emergency Preparedness is 
commonly referred to as OSEP, which provides personnel security 
and physical security and emergency preparedness for the 
Executive Office of the President and Office of the Vice 
President.
    OSEP works closely with the U.S. Secret Service, National 
Security Council, and the White House Military Office as well 
as EOP managers and all personnel assigned to the EOP to ensure 
their security measures are well coordinated and that required 
controls are consistently and fully implemented.
    OSEP provides a variety of services that ensure the proper 
protection of EOP resources including information, people, and 
facilities. These services include prescreening candidates for 
employment based on security guidelines, monitoring the 
background investigation process, briefing employees on 
requirements and guidelines for the handling and storage of 
classified material.
    In reference to the committee's request that I provide 
information on White House procedures for safeguarding 
classified information, OSEP follows guidelines set forth in 
various Executive orders that deal with classified information.
    For example, Executive Order 12968, Access to Classified 
Information, dated August 2, 1985, established a uniform 
Federal personnel security program for employees who will be 
considered for initial or continued access to classified 
information.
    Executive Order 12958, Classified National Security 
Information, dated April 17, 1995, prescribes a uniform system 
for classifying, safeguarding, and declassifying national 
security information.
    OSEP staff members brief all new EOP employees on the 
responsibilities for handling and securing classified 
information consistent with these Executive orders. 
Additionally, mandatory annual refresher security briefings are 
provided to those EOP employees holding security clearances. In 
the event that an EOP employee fails to follow applicable 
guidelines resulting in a security violation, a member of the 
EOP office to which the individual's assigned should report the 
matter to OSEP.
    OSEP then refers the matter and it follows procedures 
consistent with the guidelines in Executive Order 12968 to 
ensure that a determination is made to whether the person 
should continue to hold a security clearance and if the 
incident involves a risk to classified information controlled 
by an organization outside the EOP, that organization is 
notified.
    Mr. Chairman, I am not able to discuss individual cases or 
investigations. I would be happy to answer questions related to 
the procedures for handling classified information or 
corresponding to the unauthorized release of classified 
information.
    Thank you.
    Chairman Waxman. Mr. Leonard.

                STATEMENT OF J. WILLIAM LEONARD

    Mr. Leonard. Thank you, Mr. Chairman.
    Chairman Waxman, Mr. Davis, and members of the committee, I 
wish to thank you for inviting me to testify here today.
    I direct the Information Security Oversight Office [ISOO]. 
Under Executive Order 12958, as amended, we have substantial 
responsibilities with respect to the classification, 
safeguarding, and declassification of information by agencies 
within the executive branch. Included is the responsibility to 
develop and promulgate a directive implementing the order.
    It is the order that sets forth the basic framework and 
legal authority by which executive branch agencies may classify 
national security information. Pursuant to his constitutional 
authority and through the order, the President has authorized a 
limited number of officials to apply classification to certain 
national security-related information.
    In delegating classification authority, the President has 
established clear parameters for its use and certain burdens 
that must be satisfied.
    Specifically, every act of classifying information must be 
traceable back to its origin as an explicit decision by a 
responsible official who has been expressly delegated original 
classification authority. In addition, the original 
classification authority must be able to identify or describe 
the damage to national security that could reasonably be 
expected if the information was subject to unauthorized 
disclosure. Furthermore, the information must be owned by, 
produced by or for, or under the control of the U.S. 
Government. And, finally, it must fall into one or more of the 
categories of information specifically provided for in the 
order.
    The President has also spelled out in the order some very 
clear prohibitions and limitations with respect to the use of 
classification. Specifically, for example, in no case can 
information be classified in order to conceal violations of 
law, inefficiency, or administrative error.
    It is the responsibility of officials delegated original 
classification authority to establish at the time of the 
original decision the level of classification as well as the 
duration of classification.
    The order and directive go on to establish requirements for 
access to classified information, such as the need for a 
favorable access eligibility determination by an agency, as 
well as the execution of an approved nondisclosure agreement.
    The order and directive also promulgates minimum standards 
for the safeguarding of classified information, including such 
issues as storage, reproduction, transmission and destruction.
    We also establish actions to be taken in the event of a 
loss, possible compromise, or unauthorized disclosure of 
classified information. This includes the prompt reporting and 
investigation of such instances in order to implement 
appropriate corrective actions and to ascertain the degree of 
damage to national security.
    While I stated earlier it is the responsibility of the 
original classification authority to determine the duration of 
classification, a fundamental principle of the order is that 
classified information shall be declassified as soon as it no 
longer meets the standards for classification.
    In addition, while the order presumes that information that 
continues to meet the standards for classification requires 
continued protection, it provides for exceptional cases in 
which the need to protect such information may be outweighed by 
the public's interest in disclosure of the information.
    In such circumstances, an agency head or designated 
official may, as an exercise of discretion, declassify the 
information.
    In addition to the above, information can be declassified 
in one of three ways: first, by implementing the instructions 
set forth in a classification or declassification guide; 
second, by following a view by an authorized official, or 
third, automatically, without benefit of review.
    Finally, the order establishes specific responsibility for 
agencies in establishing an effective classification management 
program.
    Again, I want to thank you for inviting me here today, Mr. 
Chairman. I would be happy to answer your questions and any 
questions any members the committee might have.
    Chairman Waxman. Thank you very much.
    [The prepared statement of Mr. Leonard follows:]

    [GRAPHIC] [TIFF OMITTED] T8579.010
    
    [GRAPHIC] [TIFF OMITTED] T8579.011
    
    [GRAPHIC] [TIFF OMITTED] T8579.012
    
    Chairman Waxman. The Chair will recognize himself to start 
off the questions.
    Mr. Knodell, you are the one charged at the White House for 
safeguarding classified information; isn't that correct?
    Mr. Knodell. That is correct.
    Chairman Waxman. And in doing so, you have an Executive 
Order 12958 that implements the regulations for the protection 
of this information. I want to ask you about that and, of 
course, we are looking at the context of Mrs. Wilson's identity 
being disclosed.
    Federal regulations require that any person who has 
knowledge of the loss or compromise of classified information 
has an obligation to report to the White House Security 
Officer.
    I want to read to you 5CFS section 1212.30. ``Any White 
House employee who has knowledge of the loss or possible 
compromise of classified information should report the 
circumstances to the EOP security officer.'' Is that accurate, 
Mr. Knodell?
    Mr. Knodell. Yes, it is.
    Chairman Waxman. And the White House officials who know 
about the disclosure of classified information have an 
obligation to report what they know to you.
    Mr. Knodell. Yes, sir.
    Chairman Waxman. Mr. Leonard, you are one of the Nation's 
experts on protection of classified information. Do Federal 
officials who learn of the possible breach of classified 
information have an obligation to report it to the security 
officer at the White House?
    Mr. Leonard. Any individual that becomes aware of a 
security violation, especially one in which may involve an 
unauthorized disclosure, has the obligation to promptly report 
that matter to the designated official to receive that.
    Chairman Waxman. That's whether it was intentionally 
disclosed or unintentionally disclosed?
    Mr. Leonard. Yes, sir, that's correct.
    Chairman Waxman. Mr. Knodell, I want to ask you about 
whether the White House officials complied with this 
requirement after the disclosure of Mrs. Wilson's identity. Let 
me start with the former White House Press Secretary Ari 
Fleischer, Mr. Fleischer's conversations with Walter Pincus of 
the Washington Post and David Gregory of NBC News about Ms. 
Wilson's identity. These conversations took place in July 2003. 
Almost immediately it was clear that Ms. Wilson's identity was 
classified information.
    Mr. Knodell, the regulations require Mr. Fleischer to 
report what he knew about this disclosure to you. Did he do 
that?
    Mr. Knodell. Mr. Chairman, I thought the agreement here for 
me today was I would not discuss specific investigations.
    Chairman Waxman. As I understood it, we wouldn't discuss 
the Libby case. That was a concern, that we were going to 
rehash the Libby case. This is the Valerie Plame Wilson case, 
and it is a question Congress is exploring to fine out whether 
our security laws and regulations are working.
    One way to find that out is to find out whether you were 
told that there was a violation and the rules were upheld and 
followed in the requirement and obligations to report it to 
you.
    Mr. Knodell. Mr. Chairman, that happened before my tenure 
in this current position. I began this position in August 2004.
    Chairman Waxman. Well, do you--are you aware of whether the 
report was made by Mr. Fleischer to your predecessor?
    Mr. Knodell. I'm not, Mr. Chairman.
    Chairman Waxman. Are you aware if there's any investigation 
that ever took place in the White House about the release of 
this classified information?
    Mr. Knodell. I am not.
    Chairman Waxman. Do you know whether Carl Rove, the 
President's senior political adviser, came forward and reported 
what he knew about the breach of Ms. Wilson's identity. After 
all, we learned that Mr. Rove talked about her identity with at 
least two journalists, a Robert Novak and Matthew Cooper of 
Time Magazine.
    Mr. Knodell. Mr. Chairman, I have no knowledge of any 
investigation within my office.
    Chairman Waxman. How long have you been in this office?
    Mr. Knodell. Since August 2004.
    Chairman Waxman. Two and a half years. Were you aware in 
the last 2\1/2\ years that this was an issue for which there 
was a lot of concern?
    Mr. Knodell. Yes, Mr. Chairman, I was.
    Chairman Waxman. Did you learn that from people in the 
White House?
    Mr. Knodell. Through the press.
    Chairman Waxman. Mr. Leonard, the regulations seem clear, 
it says that officials like Mr. Rove have an obligation to 
report security violations.
    Mr. Knodell, wouldn't there have to be a report that would 
have been filed in your office?
    Mr. Knodell. If we were notified, there would be, sir, yes.
    Chairman Waxman. So if you were notified, a report would be 
on file. Is that right?
    Mr. Knodell. Correct.
    Chairman Waxman. You don't know if there's one on file. Is 
that correct, you don't even know there's one on file?
    Mr. Knodell. There is not one on file.
    Chairman Waxman. There is not one on file. You know that 
there is no report on file that classified information was 
disclosed and that report was about Fleischer or Rove or all 
the other names.
    Mr. Knodell. Mr. Chairman, not within the Office of 
Security and Emergency Preparedness.
    Chairman Waxman. Mr. Leonard, just to clarify the point, 
isn't there an obligation under the law to have that 
information filed by the person who learns that he disclosed 
classified information even inadvertently?
    Mr. Leonard. Again, Mr. Chairman, the requirement is for 
anyone who becomes aware of a violation, the person who may be 
involved in committing it or someone who is otherwise aware of 
it, to promptly report that to the designated official so that 
an appropriate inquiry and investigation can be conducted.
    Chairman Waxman. Well, these people may not have known at 
the time they disclosed this information to the press but they 
certainly learned afterwards. Did they have an obligation even 
then to report?
    Mr. Leonard. Yes, Mr. Chairman. Again, the purpose of the 
notification is to allow for the conduct of an investigation or 
an inquiry in order to at the very least determine what the 
causes were so as to provide for corrective action to assess 
the possibility of damage to national security.
    Chairman Waxman. Last question to Mr. Knodell. Was there 
any corrective action taken, was any disciplinary action taken 
against Mr. Rove for failing to report his knowledge of the 
breach of Mrs. Wilson's identity?
    Mr. Knodell. No, Mr. Chairman.
    Chairman Waxman. No, no action was taken, or no, you don't 
know?
    Mr. Knodell. No action was taken.
    Chairman Waxman. Thank you. Mr. Davis.
    Mr. Davis of Virginia. Mr. Knodell, you just found out you 
were coming here yesterday, is that correct?
    Mr. Knodell. Actually had word of it earlier in the week 
but found out definitively yesterday, yes, sir.
    Mr. Davis of Virginia. Generally committee rules about 
advance notice and consultation to protect both the majority 
and minority rights, we get notice of these, and requires that 
Members be informed in writing of witnesses and the likely 
scope of their testimony 3 days prior to a hearing.
    We were informed only yesterday of the addition of two 
witnesses to today's, which doesn't generally allow us the time 
to prepare that we would ordinarily like.
    Do you know, was the possibility of a subpoena discussed 
with you or with Mr. Fielding in terms of your coming here 
today?
    Mr. Knodell. I understand that there was talk of a 
subpoena.
    Mr. Davis of Virginia. Just for the record, the minority 
was not consulted on that at all.
    Chairman Waxman. Would the gentleman yield? As I understand 
it, Mr. Knodell was expected to come here and that information 
was out there a week prior to today and it was shared with the 
minority staff. We found out yesterday that Mr. Knodell was not 
going to be permitted to testify. I called the White House 
Counsel and suggested that we might have to issue a subpoena 
unless Mr. Knodell was made available. I was told the subpoena 
would not be necessary. Mr. Knodell is here.
    Mr. Davis of Virginia. My understanding was that the 
invitation had come but we weren't notified until yesterday he 
would appear.
    Let me just start. When an agency creates classified 
material, let's say the CIA, and then shares it with another 
agency, what obligations and responsibilities does the 
originator have to convey the classification status to the 
recipient?
    Mr. Knodell. If it's a document, it will be clearly marked 
on that document.
    Mr. Davis of Virginia. How about an individual?
    Mr. Knodell. They should be told that it's classified 
material that's being passed.
    Mr. Davis of Virginia. To your knowledge there was no 
knowledge at the White House of Mrs. Plame's covert status. Or 
can you not comment on that?
    Mr. Knodell. I can't comment, I don't have any knowledge of 
it.
    Mr. Davis of Virginia. Mr. Leonard, let me just ask this, 
does the burden generally fall on the agency that has the 
classification or that would have an employee in a covert 
status to convey that? How else would another agency know?
    Mr. Leonard. With respect to conveying classification 
status, the burden or the responsibility--clearly the preferred 
way is immediate notice to the recipient of classified 
information. That can happen either by markings on a document 
if it's written notification, or if it's oral notification, it 
would be something along----
    Mr. Davis of Virginia. In this case there were briefings; 
there were briefings from individuals and names on briefings 
but there would not be any documentation, would there, to say 
this person is covert or not covert, as a general rule?
    Mr. Leonard. When disclosure is oral, normally it would be 
preceded by something along the lines what I'm about to tell 
you is classified such and such a level. Another way to 
disclose or the provide classification guidance is to again 
have a written classification that have would provide specifics 
as to what's classified at what level or to convey the 
substance of a classification guide through the course of 
briefings and whatever. And then last, all cleared individuals 
have an affirmative responsibility by virtue of signing a 
nondisclosure agreement that if there is any question in their 
mind as to the true classification of status of information 
they are provided, they are obligated to seek clarification 
before the disclosure.
    Mr. Davis of Virginia. Is there an obligation to ask?
    Mr. Leonard. If there was uncertainty in the mind of the 
recipient by virtue of the nondisclosure agreement.
    Mr. Davis of Virginia. The difficulty we have in this 
situation is there are a lot of people that work for CIA and 
are not under cover or in a covert operation. In fact, they 
fill it out on applications publicly. Everybody knows they work 
there.
    I'm just wondering what is the obligation of a recipient 
agency at that point to ask appropriate questions, or should 
the obligation be on the CIA affirmatively to protect their 
employees. That's really the question here. Because we have 
heard no testimony in the first panel that there was any 
knowledge on the part of anybody who was passing this 
information that Mrs. Plame was in a covert status. Had there 
been, I think we would have seen the investigation turn out 
differently at this point.
    Mr. Leonard. There is an affirmative obligation on the part 
of the party who's disclosing the information. If there is 
uncertainty in the mind of the recipient, there is likewise an 
affirmative responsibility.
    Mr. Davis of Virginia. Let me ask you both this, this was a 
situation it's clear Mrs. Plame appeared to have handled this 
appropriately, but if a newspaper is getting ready to out an 
operative or a top secret memo or something and there are 
penalties attached, what do you do at that point to let them 
know they are violating the law, to let them know that they are 
going out with top secret information or in this case outing an 
agent? What would be the obligation at that point of the CIA to 
go forward and notify the individuals that are suspected of 
outing or on the verge of doing this that are exploring this?
    Mr. Knodell. I think clearly if they know the classified 
information is going to be released it's incumbent upon them--
--
    Mr. Davis of Virginia. How would they do it; say don't do 
this? Because when you say don't do this to the press----
    Mr. Knodell. Because they have the classified information, 
they can have them sign a nondisclosure agreement barring them 
from----
    Mr. Davis of Virginia. Would it be appropriate to say this 
is classified information, will hurt national security? They 
should do that, shouldn't they?
    Mr. Leonard. They do.
    Mr. Davis of Virginia. We don't know what the facts were in 
this, but I hope to work with Mr. Waxman to get the facts in 
this particular case.
    Mr. Leonard, would you agree with that?
    Mr. Leonard. It's a judgment call, Mr. Davis. There 
certainly will be circumstances where it is prudent to 
intercede along those lines. There will be other circumstances 
where it may not be because they could serve to confirm 
something that we don't want to confirm, and quite frankly, 
just because something is in the media doesn't mean it's 
accurate.
    Mr. Davis of Virginia. But if you're the CIA or with an 
agency that has that and you know they have the information and 
they are going to come out with it, at that point that argument 
goes out the window.
    Mr. Leonard. Again, it depends upon what the nature.
    Mr. Davis of Virginia. If it's true.
    Mr. Leonard. Right. It depends on what the nature of the 
information. Your example of the identity of a covert officer, 
that would be prudent.
    Mr. Davis of Virginia. I think one of the issues here, 
aside from all the political sideshow, is the fact that once 
the agency knew one of their operatives, covert operatives were 
going to be outed, what steps did they take at that point they 
knew a story was pending. Mrs. Plame has testified here under 
oath that they knew this story was coming, in fact her husband 
said he did it. Obviously there were some conversations. And 
exactly what did the CIA do to protect their operative? At that 
point the obligation doesn't go to the White House who we 
weren't even sure was in that particular chain with the outing 
of that story, but what do they or should they have done? I 
hope that we can explore that further.
    Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank the gentlemen for testifying.
    Mr. Knodell, let me--is it Knodell?
    Mr. Knodell. Yes.
    Mr. Cummings. Let me ask you a few questions because in 
answering some of the chairman's questions you left me shocked. 
I want to make sure I heard you right.
    Are you saying with regard to this case; that is, the 
outing of Valerie Plame Wilson, there is no report?
    Mr. Knodell. Not in my office, there is not.
    Mr. Cummings. Are you also saying that there was no 
investigation?
    Mr. Knodell. Not by my office.
    Mr. Cummings. Not by your office. And so I could conclude 
then that there were no sanctions, is that correct? No 
sanctions within your office?
    Is it one of your jobs, part of your job to recommend 
sanctions where you find that there has been a breach?
    Mr. Knodell. Correct. But there was already an outside 
investigation that was taking place, criminal investigation. 
That's why we took no action.
    Mr. Cummings. Now one of your main objectives for being in 
the White House is to make sure that you--make sure that these 
kinds of things don't happen, is that right?
    Mr. Knodell. Correct.
    Mr. Cummings. I would assume if anyone took the job you 
took, that one of--and considering what happened before you got 
there, that this would be something that would be on the minds 
of everybody because, again, this is like bells ringing, alarms 
going off. This is the kind of thing that you don't want to do 
because this could end up in your lap. Is that right?
    Mr. Knodell. In this particular case you're absolutely 
right. This started long before my tenure in this position. By 
the time I took the position, the criminal investigation was 
already under way.
    Mr. Cummings. But did you look into it at all, just so that 
you could make sure you did your job right and didn't allow 
this to happen again?
    Mr. Knodell. We didn't want to have collateral 
investigations going on at the same time, sir.
    Mr. Cummings. So if there is a criminal investigation and 
you have--and you're trying to make sure it doesn't happen 
again, so you don't even look into it at all. In other words, 
you are the guy who is responsible for guarding all this and 
making sure that everything goes right. So it sounds to me like 
we had a breach on top of a breach. We had one situation where 
Mrs. Valerie Plame Wilson's identity and covert status was 
disclosed and then within the very office within the White 
House there is no report, there is no investigation, and there 
are no sanctions?
    Mr. Knodell. Sir, again, any reporting would have taken 
place prior to my arriving into the office.
    Mr. Cummings. Now----
    Chairman Waxman. Will the gentleman yield because I just 
want to pin this point down.
    Do you know whether there was an investigation at the White 
House after the leaks came out?
    Mr. Knodell. I don't have any knowledge of an investigation 
within my office.
    Chairman Waxman. Ever.
    Mr. Knodell. I do not.
    Chairman Waxman. Because the President said he was 
investigating this matter, was going to get to the bottom of 
it. You're not aware that any investigation took place?
    Mr. Knodell. Not within my office.
    Chairman Waxman. If there was an investigation, what were 
you referring to, Mr. Fitzgerald's investigation?
    Mr. Knodell. Yes, the outside investigation.
    Chairman Waxman. That didn't start until months and months 
later and that had the purpose of only narrowly looking to see 
whether there was a criminal law violated. But there was an 
obligation for the White House to investigate whether 
classified information was being leaked inappropriately, wasn't 
there?
    Mr. Knodell. If that was the case, yes.
    Chairman Waxman. Thank you.
    Mr. Davis of Virginia. Could I ask for one very quick 
question?
    Mr. Cummings. I yield.
    Mr. Davis of Virginia. Would the initiative of a criminal 
investigation relieve those who made these disclosures of the 
obligation to report to you that by forcing them to disclose 
could violate their fifth amendment rights?
    Mr. Leonard. Actually, in regards to security violations we 
encourage self-reporting. We would encourage them to contact 
our office.
    Mr. Cummings. Reclaiming my time, if Mr. Rove, for example, 
the No. 1 adviser to the President of the United States, 
received this information or had anything to do with the 
disclosing of a covert agent's identity and now we have a 
situation where it appears that the criminal trial is over, 
would your agency have anything, I mean your office have 
anything to do now or do you just close the books and say it's 
over?
    Mr. Knodell. I have no indication from the Department of 
Justice or any other agency.
    Mr. Cummings. Would Mr. Rove have had a duty to report any 
kind of breach?
    Mr. Knodell. Yes.
    Mr. Cummings. Even today.
    Mr. Knodell. At the time of the occurrence.
    Mr. Cummings. I'm sorry?
    Mr. Knodell. At the time of the occurrence, when the 
violation took place.
    Mr. Cummings. All right. Thank you.
    Chairman Waxman. Thank you. Before I recognize the next 
witness I want to clarify this point, that the investigation by 
Mr. Fitzgerald didn't take place for months and months and 
months after it was well known that there had been a leak of 
the identity of a covert CIA agent.
    Now as I understand it, there was an obligation for the 
White House to conduct an immediate investigation to find out 
whether they needed to suspend security clearances of somebody 
who had leaked this information, to maybe take disciplinary 
action against an individual who might have been involved; 
third, to find out who divulged it.
    The White House had that obligation because this was a 
matter of important, highest order national security.
    Am I stating things correctly, Mr. Leonard?
    Mr. Leonard. Mr. Chairman, as you point out, whenever there 
is suspected an unauthorized disclosure or compromise, there is 
an affirmative responsibility to do an inquiry at the very 
least to implement corrective actions so that subsequently 
additional and similar violations do not continue to occur and 
also to be able to ensure that any potential damage to national 
security is assessed. Part of the assessment of corrective 
action is also the assessment of the need for sanctions.
    Chairman Waxman. Right after the Novak column appeared 
there was an outrage that this was disclosing a covert agent. 
Not only that, the CIA was so angered by it that they wrote a 
letter to the Justice Department demanding an investigation. 
And in light of this, which took place immediately after the 
information that the leak was disclosed, the White House still 
has not initiated an investigation.
    Am I correct in that statement, Mr. Knodell?
    Mr. Knodell. That's correct, my office has not.
    Chairman Waxman. Thank you. Ms. Watson.
    Ms. Watson. Thank you.
    Mr. Knodell, are you the Director of the Office of 
Security?
    Mr. Knodell. Yes, ma'am.
    Ms. Watson. Executive Office of the President?
    Mr. Knodell. Yes, ma'am.
    Ms. Watson. The White House.
    Mr. Knodell. I work for the Office of Administration, but, 
yes.
    Ms. Watson. How long have you been on the job?
    Mr. Knodell. I started this position in August 2004.
    Ms. Watson. 2004, and this is March 2007. I just want to 
establish that for the record.
    The investigation that was led by Special Counsel Patrick 
Fitzgerald revealed that a number of White House officials, 
including former Chief of Staff of the Vice President, Lewis 
Scooter Libby, Senior Adviser to the President, Carl Rove, and 
the White House Press Secretary Ari Fleischer, discussed and 
disclosed information concerning Ms. Wilson's CIA employment 
status.
    With respect to some of these officials, the Fitzgerald 
proceedings, and how they attained the information was 
discussed and Mr. Libby, for example, received information 
about Ms. Plame's CIA employment from the State Department, the 
Central Intelligence Agency, the Vice President, and another 
aide to the Vice President. What is not publicly known, 
however, is how Mr. Carl Rove learned of Ms. Wilson's 
employment status.
    So, Mr. Knodell, under the requirements governing 
classified information, the White House should have conducted 
an investigation. Would that be you?
    Mr. Knodell. Yes, ma'am, it would be my office.
    Ms. Watson. Of the breach regarding Ms. Wilson's CIA 
employment status, can you tell us how Mr. Rove learned about 
Ms. Wilson's employment status at the CIA?
    Mr. Knodell. I cannot.
    Ms. Watson. You have been on since when?
    Mr. Knodell. August 2004.
    Ms. Watson. And you cannot tell us if you investigated how 
that information was leaked. Loudly for the record, please.
    Mr. Knodell. There was no investigation from the Office of 
Security and Emergency Preparedness, that's correct.
    Ms. Watson. Isn't that unusual? That's why I wanted you to 
establish your position. You are the Director of the Office of 
Security and you did no investigation of how this information 
was out there?
    Mr. Knodell. That's correct.
    Ms. Watson. OK. Has there been any investigation by your 
office into how Mr. Rove would have obtained the information? 
Apparently your answer is no.
    Mr. Knodell. That's correct.
    Ms. Watson. It seems to me that there is some dereliction 
of duty if you are the Director and you are to oversee the 
security from the White House and you're telling me there was 
no investigation.
    Mr. Knodell. That's correct.
    Ms. Watson. Mr. Chairman, I think we ought to further 
investigate why the Director's office, whether it was the 
person who preceded him and now he falls into this and he is 
the witness here, but I want us to get to the truth as to why 
the Office of Security did not do an investigation. This goes 
to the core of the security in this country and our operatives 
abroad.
    I think the reason why the intelligence was so faulty and 
we went to war against a sovereign nation was because of the 
failure in your office and the CIA to have accurate 
information.
    Thank you, Mr. Chairman, for this time.
    Chairman Waxman. Thank the gentlelady.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I thank the 
witnesses for their testimony. I think you can hear that the 
members of the committee are pretty stunned that no 
investigation was undertaken into these breaches.
    My question, I just want to understand, is it a matter of 
White House security policy that if there is a criminal 
investigation into a leak out of the White House that the 
security office does not undertake its own investigation or 
administrative action?
    Mr. Knodell. We would not run a collateral investigation.
    Mr. Van Hollen. Let me make sure I understand this. You 
have somebody who's accused of leaking, there's a court 
proceeding that may go on for years and years and years, the 
alleged leaker continues to be in the White House, continues to 
be potentially there to leak information, and it's the policy 
of the White House to take no action to ask any question of the 
alleged leaker to determine whether or not that person's 
security clearance at the very least should be revoked.
    Mr. Knodell. No, that is not the case.
    Mr. Van Hollen. What is the case?
    Mr. Knodell. An investigation should be done.
    Mr. Van Hollen. An investigation should be done, right?
    Mr. Knodell. Correct.
    Mr. Van Hollen. But an investigation was not done?
    Mr. Knodell. That's correct.
    Mr. Van Hollen. Clearly the standard in the criminal 
investigation like this one, one of the questions was whether 
people had knowledge of whether there was a covert--someone was 
a covert operative. But the standard as I understand for your 
purposes is simply a question of whether classified information 
was disclosed. Isn't that right?
    Mr. Knodell. Can you rephrase that for me, please?
    Mr. Van Hollen. In other words, as I understand the 
regulations, your office has an obligation to undertake an 
investigation when classified information has been disclosed.
    Mr. Knodell. Correct.
    Mr. Van Hollen. There's not as a preliminary matter any 
question of whether it was intentional disclosure, you're 
supposed to look into any disclosure, isn't that right?
    Mr. Knodell. That's right.
    Mr. Van Hollen. My question, and I understand a little time 
has lapsed, but given what you just testified to, why aren't 
you undertaking an investigation today? These are all now 
publicly disclosed information, publicly disclosed classified 
information by officials in the White House. You have said it 
is not the policy to suspend an administration proceeding 
pending a criminal investigation. It is very possible that 
people, and it looks very likely that people clearly leaked 
classified information. Why aren't we taking an investigation 
today?
    Mr. Knodell. Mr. Congressman, I will take this back, we'll 
review this when I get back to the office, I'll review this 
with senior management. We need to ensure that all criminal 
investigations have been concluded, and we will certainly look 
into it.
    Mr. Van Hollen. If I can just stop you on that; I 
understand the criminal investigation is being concluded but I 
understood your testimony a minute ago to say that you would 
conduct an administrative investigation even during the pending 
criminal investigation.
    Mr. Knodell. No, sir.
    Mr. Van Hollen. So then it is the policy of the White House 
not to undertake any administrative investigation as long as 
there are criminal investigations going. Is that written down 
somewhere?
    Mr. Knodell. D-SKID 6.8, I believe where there will not be 
a collateral investigation. I believe. I believe that's the 
case.
    Mr. Leonard. Can I clarify something, Mr. Congressman? 
Clearly when there is a need for an administrative inquiry and 
a criminal investigation you have a situation where there are 
in fact competing priorities and so at the very least it can be 
awkward.
    So I'm not too sure we can say that there's a hard fast 
rule one way or the other because quite frankly there could be 
situations where someone can make a case that an administrative 
inquiry while there's a criminal investigation going on can 
amount to obstruction of justice. So those types of things have 
to be sorted out and there is no clear-cut issue.
    From a classification point of view I would submit that the 
immediate concern should first and foremost be let's make sure 
that we're not going to have any additional security violations 
that would result in additional compromises, and that should 
not wait.
    Mr. Van Hollen. Let me if I may, Mr. Chairman, the GAO has 
looked into this issue and it's clear, as I understand, the 
rules of the White House are supposed to be similar to the 
rules that apply in any agency, is that right, with respect to 
how you treat these?
    Mr. Knodell. That's right.
    Mr. Van Hollen. I know other Federal officials have 
routinely lost their security clearances pending investigations 
into potential leaks of classified information and without even 
the case when criminal charges were not filed.
    For example, Sergeant Samuel Provence had a security 
clearance revoked after he talked to several media outlets 
about the mistreatment of a 16-year-old boy and other abuses by 
interrogators at Abu Ghraib prison in Iraq. He was not indicted 
or accused of criminal wrongdoing.
    Here's someone who made a statement, a public statement 
about abuses at Abu Ghraib and his security clearance was 
temporarily suspended, and yet you have clear evidence of top 
officials in the White House having disclosed classified 
information and no action was taken.
    I have to ask you to go back and take a look at whether or 
not there's really a prohibition on moving forward. Clearly now 
that the criminal investigation is over, it seems one should be 
launched even if in fact that did prohibit an investigation 
from going forward before.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Van Hollen. That certainly 
appears to be a double standard.
    Mr. Davis of Virginia. To clarify, my understanding is the 
leak occurred on July 13th, and within the month, I don't know 
if it was July 14th but certainly in July, we know the CIA made 
their referral to the Justice Department. So it was immediately 
under investigation by the Justice Department.
    Now it took Attorney General Ashcroft several months before 
he recused himself and got someone else on board, but there was 
an immediate criminal investigation, isn't that correct?
    Mr. Knodell. That's my understanding.
    Mr. Davis of Virginia. That would change the dimensions in 
terms of whether you would do your own investigation.
    Mr. Knodell. Correct.
    Mr. Davis of Virginia. Or leave it to the professionals at 
the Justice Department.
    Let me just ask, in terms of an individual who may have 
inadvertently outed an operative or a memorandum or something 
during that time, once the criminal side gets kicked in, at 
that point they have the right to allow that to move forward, 
protect themselves, and at that point I don't know if it 
relieves them of the obligation but they certainly have fifth 
amendment rights at that point that could lead them to not go 
forward with that, is that correct?
    Mr. Leonard. That would be correct.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Before I recognize Mr. Hodes, the 
President of the United States made statements when this hit 
the press that he was outraged and he was going to be 
conducting an investigation and heads would roll. He said if 
anybody in the White House disclosed this information about a 
covert agent, that person would be fired. Later he modified and 
said they would have to be convicted of a crime. But it turns 
out that the President didn't even ask anybody to do an 
investigation. If he wanted to get the truth all he had to do 
was call Carl Rove and Ari Fleischer and Scooter Libby and all 
these people into his office and say, hey, how did this 
information get out, who did it?
    If he thought it was a problem, he could have said you're 
not going to get access to other security information. Isn't 
that why the White House can do it contemporaneously with ay 
criminal investigation, Mr. Leonard?
    Mr. Leonard. As I indicated, Mr. Chairman, when you have 
those competing priorities or competing interests, it can make 
an awkward situation, but those are the types of things that 
would have to be worked out.
    Chairman Waxman. Sounds like the competing priority was not 
to allow his administration and top personnel to be embarrassed 
by the truth.
    Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman. Gentlemen, you both 
agree that the national security of the United States is the 
most important thing we have to consider, notwithstanding 
competing priorities. Would you both agree to that?
    Mr. Leonard. Yes, sir.
    Mr. Knodell. Yes, sir.
    Mr. Hodes. Mr. Knodell, you came in in August 2004 to the 
White House, is that correct?
    Mr. Knodell. Correct.
    Mr. Hodes. You serve how, sir, at the pleasure of the 
President?
    Mr. Knodell. No, sir, I'm a career employee.
    Mr. Hodes. I'm sorry?
    Mr. Knodell. Career employee.
    Mr. Hodes. Are you an attorney?
    Mr. Knodell. I am not.
    Mr. Hodes. Who was your predecessor at the White House.
    Mr. Knodell. Jeffrey Thompson.
    Mr. Hodes. Where is he now?
    Mr. Knodell. I don't know. Last I heard, he had moved to 
Georgia.
    Mr. Hodes. When you came into your position, did Mr. 
Thompson brief you on the situation in the White House and what 
had or had not occurred with respect to investigations into the 
potential breach of classified information?
    Mr. Knodell. No, sir.
    Mr. Hodes. Let me ask you this, what discussions, if any 
have you had with the President of the United States about 
initiating an investigation into the now clear, obvious 
security breaches that have occurred?
    Mr. Knodell. None.
    Mr. Hodes. What discussions, if any, have you had with the 
Vice President of the United States?
    Mr. Knodell. None.
    Mr. Hodes. What discussions have any of you had with Carl 
Rove?
    Mr. Knodell. None.
    Mr. Hodes. What discussions, if any, have you had with 
anyone about whether or not you should or should not institute 
an investigation into the security breaches that are the 
subject of this hearing today?
    Mr. Knodell. I have had no conversations.
    Mr. Hodes. You haven't talked to anybody?
    Mr. Knodell. That's correct.
    Mr. Hodes. So when you say you're going to go back to the 
White House and take it up with senior management, you're 
senior management, aren't you?
    Mr. Knodell. Yes, sir, I am.
    Mr. Hodes. So you're going to go back and talk to yourself 
about whether or not you're going to conduct an investigation; 
is that what you want this panel to believe?
    Mr. Knodell. I report to several people.
    Mr. Hodes. Who do you report to, sir?
    Mr. Knodell. I report to Tom Dryer.
    Mr. Hodes. Who is he?
    Mr. Knodell. He is the Deputy Chief Operations Officer.
    Mr. Hodes. For what?
    Mr. Knodell. For the Office of Administration.
    Mr. Hodes. Do you report to anybody else?
    Mr. Knodell. He's my direct report.
    Mr. Hodes. Who does he report to?
    Mr. Knodell. He reports to Sandra Evans.
    Mr. Hodes. Who's Sandra Evans?
    Mr. Knodell. Operations Officer. I'm sorry, within OA. And 
then the COO reports to Mr. Allen Swindeman, he's the Director 
of OA.
    Mr. Hodes. Does anybody report back to the White House?
    Mr. Knodell. Mr. Swindeman is our Director.
    Mr. Hodes. He reports to the White House?
    Mr. Knodell. He is a political appointee.
    Mr. Hodes. Do you agree with me, Mr. Knodell, that the NIE 
is a classified document?
    Mr. Knodell. Pardon me?
    Mr. Hodes. Do you agree that the National Intelligence 
Estimate before it is declassified is a classified document?
    Mr. Knodell. Yes, sir.
    Mr. Hodes. Are there procedures for declassifying the 
National Intelligence Estimate?
    Mr. Knodell. I'm not familiar with specific 
declassification for that document.
    Mr. Hodes. Mr. Leonard, are their procedures in place for 
declassifying the National Intelligence Estimate?
    Mr. Leonard. Yes, sir. As with any classified information, 
it can become declassified pursuant to the original decisions 
as to when it becomes declassified. It can be become 
declassified under the authorization of an authorized official 
and then it can also become declassified just by the mere 
passage of time.
    Mr. Hodes. If classified information is revealed without 
having been properly declassified, that's considered a leak, 
correct, Mr. Leonard?
    Mr. Leonard. That's an unauthorized disclosure, yes, sir.
    Mr. Hodes. Mr. Knodell, you agree with that, it's 
considered a leak if it's not properly declassified?
    Mr. Knodell. Yes.
    Mr. Hodes. Leaking classified information is a crime, is it 
not, Mr. Knodell?
    Mr. Knodell. Yes.
    Mr. Hodes. And if two or more persons agree to leak 
classified information and one of those persons takes 
affirmative steps to do something pursuant to that agreement, 
that could be considered a criminal conspiracy, is that 
correct?
    Mr. Knodell. It could be, certainly.
    Mr. Hodes. Now it's my understanding that Mr. Libby 
testified that he was specifically authorized in advance to 
disclose key judgments of the classified National Intelligence 
Estimate to reporter Judy Miller because Vice President Cheney 
believed it important to do so. Mr. Libby also testified that 
the Vice President told him that the President had given the 
authorization to disclose portions of the National Intelligence 
Estimate.
    In your experience, gentlemen, in government, have you ever 
seen such selective declassification before?
    Mr. Leonard. I'm not aware of any similar type of action 
such as that, no, sir.
    Mr. Hodes. Do you know of any legal basis for there to be 
selective declassification to a few reporters of the National 
Intelligence Estimate? And I want to tell you on the date that 
was supposedly disclosed by Mr. Libby, July 8th, in the 
following 10 days administration officials told folks that the 
NIE was still classified, and it was formally declassified on 
July 18th.
    Can you explain to this panel how if Mr. Libby had 
authority from the President or the Vice President to 
declassify the NIE on July 8th, the administration continued to 
claim that it was classified for 10 days and then apparently 
declassified it again on July 18th.
    Mr. Leonard. I don't have any firsthand knowledge to 
address any of that, sir.
    Mr. Knodell. Nor do I.
    Mr. Hodes. Does it raise any questions for you?
    Mr. Leonard. The provisions of the Executive order, as I 
had indicated, clearly provides for instances where classified 
information can be declassified even when it otherwise meets 
the standards for continued classification. And then ultimately 
the exercise of classification and declassification authority 
is the President's absolute authority. It's not derived from 
any law or regulation or Executive order, it's his Article II 
constitutional authority to be used absolutely.
    Mr. Hodes. Assuming that to be the case, is it your 
testimony that the President could choose to selectively 
declassify the National Intelligence Estimate and give 
directions that it could be declassified to be used with three 
reporters but then still retain--and that document is still 
classified?
    Chairman Waxman. The gentleman's time has expired, but we 
do want an answer.
    Mr. Leonard. Sir, it's my testimony that it is the 
President's absolute authority when it comes to the 
classification and declassification of information.
    Chairman Waxman. Ms. Norton.
    Ms. Norton. Mr. Knodell, I'm looking at your title, 
Director, Office of Security. I'm trying to establish whether 
you have any authority. Do you regard yourself as having any 
independent or independent authority apart from others who 
report directly to the President of the United States? Do you 
have any ability to initiate investigations or other action on 
your own?
    Mr. Knodell. I would coordinate that through our legal 
counsel within the Office of Administration and the Director of 
the Office of Administration.
    Ms. Norton. You are testifying that you would not initiate 
any action on your own without in fact reporting up through 
some chain of command. This is not in any way an independent 
office, and you essentially are someone who makes 
recommendation to somebody else about investigations?
    Mr. Knodell. In essence, yes.
    Ms. Norton. You have to get a sign-off from someone to do 
an investigation?
    Mr. Knodell. Not initially, no. Not initially. We can start 
an investigation. We start security violations if security 
violations come in.
    Ms. Norton. Without reporting it, that's what you're doing?
    Mr. Knodell. I would report it once we started the 
investigation.
    Ms. Norton. You could be stopped from doing that?
    Mr. Knodell. That's never been the case in the past.
    Ms. Norton. You haven't apparently done such, at least in 
respect to this controversy?
    Let me ask you a question about what we do know. We do know 
that Mr. Rove spoke to two reporters, and we know who they 
were, Robert Novak and Matthew Cooper. We do know that he 
denied he had spoken with any employers--excuse me, with any 
reporters. Indeed he claimed he wasn't involved at all.
    I'm going to ask that a video clip be rolled from a press 
conference, White House press conference, involving the 
spokesman Scott McClellan addressing the Press Corps.
    [Video shown.]
    Ms. Norton. Mr. Knodell, can you explain why Mr. Rove still 
has a security clearance today, or does he?
    Mr. Knodell. Yes, he does.
    Ms. Norton. Given the admissions that apparently are clear, 
why does he have that security clearance today?
    Mr. Knodell. It's my understanding that the criminal 
investigation didn't find any criminal wrongdoing.
    Ms. Norton. I'm very disturbed by what went back and forth 
on criminal and administrative responsibilities here because 
you seem to testify that even if a matter that could risk the 
security of the United States or of a covert agent is involved, 
that the administrative process ought to stand back until a 
process with a much higher level or standard of proof is 
required has finished its course.
    Wouldn't that risk security not to even begin an 
investigation to see whether there is anything that can be 
begun to protect whatever might be the security breach quite 
apart from whether there's been a criminal violation?
    Mr. Knodell. I think as a result of the criminal 
investigation it clearly didn't show, that I have seen in the 
press, I have not seen the criminal investigative reports, that 
there was no criminal wrongdoing.
    Ms. Norton. Mr. Knodell, my question is: Does the security 
of the United States depend upon the outcome of a criminal 
proceeding or is there not in your office a duty to proceed as 
far as you can to protect security using the administrative or 
civil process?
    Mr. Knodell. Yes, ma'am, absolutely. It's not that we're 
just not protecting the White House complex and the classified 
materials.
    Ms. Norton. I can't hear you.
    Mr. Knodell. We are protecting the classified----
    Ms. Norton. Even without an investigation, so that you 
might even plug the leak while the U.S. Attorney is trying to 
find out using his processes who done it?
    Mr. Knodell, I'm suggesting that at your level you could 
plug leaks even while the criminal process is under way and 
under investigation. And I want you to look at the very same 
set of employees. If I could have up the White House----
    Chairman Waxman. Ms. Norton, your time has expired. Members 
have said they want a second round. We do have another panel 
waiting to testify. I don't want to deny Members opportunities 
to ask questions. What I would like my colleagues to do is I 
will recognize Members for a second round. Could we limit to 3-
minute second rounds? Does anybody find a problem with that?
    So then we'll do that. Members will now be recognized for 
further questioning. And, Mr. Cummings, I'm going to start with 
you if you have further questions.
    Mr. Cummings. Thank you very much, Mr. Chairman. We up 
here, Mr. Knodell, we have an obligation to try to make sure 
that we uphold the laws of this country and try to make sure 
those laws are enforced, and protecting the identity of a 
covert agent is very important to us, and I hope you understand 
that, and protecting classified information. We're trying to 
help you do your job.
    During Ms. Wilson's testimony the ranking member, Mr. 
Davis, kept making a point that a key issue in whether Mr. Rove 
and other White House officials knew Ms. Wilson was a covert 
agent. I do agree that this is relevant. If the White House 
knowingly disclosed a covert agent, that would obviously be a 
very serious matter. My understanding is that the regulations 
do not prohibit only intentional disclosures, they also 
prohibit negligent disclosures.
    Mr. Leonard, is my understanding accurate that the 
Executive order governing the handling of classified 
information prohibits knowing, willful or negligent disclosures 
of classified information, is that right?
    Mr. Leonard. Yes, sir, that's absolutely right. Regardless 
of the intent, the damage is still the same. Again, the first 
objective would be to make sure we don't have recurrences, and 
if just people are ignorant we would like to brief them and 
what have you, and then if there is intent or culpability, that 
can be taken up by means of sanctions.
    Mr. Cummings. By the way, Mr. Knodell, has there been any 
briefing as referred to by Mr. Leonard with regard to Mr. Rove 
or anybody else in the White House since this happened, since 
this disclosure took place?
    Mr. Knodell. A briefing in regards to?
    Mr. Cummings. He just said one of the things you want to do 
is brief people about the rules and regulations so it doesn't 
happen again. Did you brief anybody?
    Mr. Knodell. Congressman, yes, we do. We supply an 
indoctrination security briefing for people when they first 
come on board and then their first anniversary date and every 
year after we have annual refreshing briefs.
    Mr. Cummings. Did you use this as an example, by the way? 
This is like out there, I mean it's here.
    Mr. Knodell. No, sir.
    Mr. Cummings. You didn't say, look, this is what happened 
and we don't want this to happen again. You never did that?
    Mr. Knodell. No, sir.
    Mr. Leonard. I can tell you, Mr. Congressman, in November, 
December 2005, maybe even a little bit of 2006, there were a 
series of special briefings for all cleared personnel in the 
Executive Office of the President, mandatory briefings for 
senior management on down, and these types of issues were in 
fact covered during the course of those briefings, and this was 
publicly--the public was made aware of these.
    Mr. Cummings. So even if Carl Rove or any other White House 
official did not know that Ms. Wilson's employment status was 
classified, the disclosure of such information to an individual 
not authorized to receive it could have been a violation of the 
Executive order, and that is an Executive order of the 
President of the United States, is that right?
    Mr. Knodell. That's correct.
    Mr. Cummings. So basically the President set up some rules 
and then he said I'm going to make sure that if anybody 
violated these rules, they're going to have major problems and 
they're going to have to go, and then the next thing you know 
there is apparently a violation but no action, is that right?
    Mr. Knodell. Other than the criminal proceedings, no action 
from my office.
    Mr. Cummings. Thank you.
    Chairman Waxman. I'm sorry we don't have clips of the 
President making statements about how he was going to do an 
investigation and heads would roll, but I guess we will have to 
leave that to the Daily Show for their presentation.
    Ms. Watson, I'm going to call on you next if you have 
additional questions.
    Ms. Watson. Yes. Thank you so much, Mr. Chairman.
    Mr. Knodell, this oversight hearing is called the ``White 
House Procedures for Safeguarding Classified Information.''
    Mr. Knodell. Yes, ma'am.
    Ms. Watson. In the first round I asked you what your 
position was. You clearly said that you have not held any 
investigation and your role is the Director of Office of 
Security. Have you or do you feel that you have carried out 
your duties?
    Chairman Waxman. Could I ask the gentlelady not to ask a 
harsh question of Mr. Knodell? He's here and I think he's been 
asked some tough questions, but let's try to keep them a little 
bit less personal.
    Ms. Watson. I just want to know, I want to have some 
clarity as to what the responsibility of your position in your 
office is. There's a gap for me that you have this position but 
there's been no investigation.
    Mr. Knodell. Congresswoman, like I said, and I say with all 
due respect, the reason we did not initiate an investigation is 
because there was a criminal proceeding that was already 
underway. There was already an investigation underway.
    Ms. Watson. But the criminal procedure is over.
    Mr. Knodell. I have not been notified that it is officially 
over.
    Ms. Watson. Thank you. I have no other questions, Mr. 
Chairman.
    Chairman Waxman. Thank you, Ms. Watson. I'm going to 
recognize myself because I want to point out that there seems 
to be interesting other examples where we've had disclosures of 
leaks. This is not the only time questions have arisen about 
how the Bush administration White House handles classified 
information.
    For example, journalist and author Bob Woodward wrote in 
the introduction of his 2002 book, Bush at War, that the book 
was based in part on, ``contemporaneous notes taken during 
National Security Council and other meetings where the most 
important decisions were discussed and made,'' and that, 
``written record, both classified and unclassified.''
    Mr. Woodward also stated war planning and war making 
involves secret information. I have used a good deal of it 
trying to provide new specific details without harming 
sensitive operations or relationships with foreign governments. 
This is not a sanitized version, and the sense is if we had 
them in the United States, thank God we don't, no doubt would 
draw the line at a different, more restrictive place than I 
have, end quote.
    Mr. Knodell, Mr. Woodward's statements indicate he had 
remarkable classified information of the most sensitive 
information. Were Mr. Woodward's circumstances unique or were 
White House disclosures of classified information to him and to 
journalists in the case of Mrs. Wilson part of a broader 
pattern of White House disclosures or of classified information 
to selected journalists and authors? We see now this is not 
unique to get classified information to people.
    It's noteworthy the administration--let me ask you to 
respond to that. Looks like Mr. Woodward had information that 
was classified. He seems to admit it.
    Mr. Knodell. I have no knowledge of that.
    Chairman Waxman. Well, so when the administration, however, 
is concerned that there are questions about the disclosure of 
sensitive information by administration critics, there seems to 
be different results. For example, January 2004, within 1 day 
of former Secretary of Treasury Paul O'Neill's television 
interview in which he voiced criticism of the Bush 
administration, the administration publicly announced it was 
investigating whether Secretary O'Neill had improperly 
disclosed confidential information. OK. They didn't like what 
he had to say but they're going to immediately investigate him.
    On June 20, 2002, an irate Vice President Cheney reportedly 
told congressional leaders that the President had deep concerns 
about media accounts from just 1 day earlier when it got out 
that the National Security Agency on September 10, 2001 had 
communication intercepts with cryptic references to possible 
attacks the next day. The report cited congressional sources 
and congressional leaders. Immediately requested a Justice 
Department investigation of the matter.
    The administration seems to be inconsistent in their 
approach in these cases, and it's troubling. They raise very 
serious questions about whether White House policies on 
sensitive information is driven by political considerations. If 
it's a critic they are going to investigate, they're going to 
really stop it. When it comes to people in-house, people they 
like, people they trust, well, the investigation hasn't even 
started with regard to those people.
    I'm not asking a question, but just making this part of the 
record.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, I think it goes both 
ways in terms of selective oversight and selective 
investigations. This committee ought to also be looking at the 
NIE leaks on the Iraq war, National Intelligence Estimates 
which were leaked. It can do damage. The NSA collection and 
monitoring of certain phone information, which was leaked, 
classified secret information. The East European CIA detention 
facilities leaks. The intelligence activities toward Iran 
leaks.
    We can all be selective on this and we all understand the 
partisanship and everything else that goes on with this, which 
has been thoroughly vetted and investigated. We do of course 
have a responsibility to take a look at what the procedures are 
to make sure these things don't occur again. That's really the 
purpose of oversight, not as much as to look back but look 
forward to make sure these things do not happen again.
    Mr. Leonard, let me ask, does the President or the Vice 
President have authority to declassify on the spot?
    Mr. Leonard. As I mentioned earlier, Mr. Davis, the 
President's authority in this area is absolute pursuant to the 
Constitution.
    Mr. Davis of Virginia. So they can do it on the spot. Can 
they declassify for limited purposes?
    Mr. Leonard. Absolutely, sir.
    Mr. Davis of Virginia. Once again the leak to Novak, which 
is I think what started this whole thing, is there any evidence 
that anyone in the White House had any knowledge that Valerie 
Plame was a covert operative? Does anybody have any evidence of 
that?
    Mr. Leonard. I have no firsthand information.
    Mr. Davis of Virginia. Do you, Mr. Knodell?
    Mr. Knodell. No, I do not.
    Mr. Davis of Virginia. In terms of the obligation to 
disclose once it became apparent that she was a covert 
operative, a criminal investigation was initiated almost 
immediately by the CIA, with a referral to the Justice 
Department. Is that correct?
    Mr. Knodell. That's my understanding, yes.
    Mr. Davis of Virginia. That's my understanding as well, 
within the month. It might have been a day, I don't know what 
that time period was, and I hope the committee can find out. 
Once that criminal investigation is underway with the referral 
that sends it to Justice, now Mr. Fitzpatrick didn't come in 
until the Attorney General recused himself sometime later, but 
an investigation was already underway. What does that do to the 
obligations to disclose at that point? Does that put employees 
in a position of having to decide if they're going to exercise 
fifth amendment rights and the like and does the purpose of the 
Executive order at that point really become pointless if you 
have an investigation this?
    You haven't thought that through?
    Mr. Leonard. I have, sir, and I would submit that the 
Executive order is not pointless at that point in time. Again, 
this is an instance where you have competing national 
interests. I had over 30 years in the Department of Defense and 
there were many times where senior leadership in the Department 
of Defense did battle with the Department of Justice, the FBI, 
where there were instances where the national security issues 
at risk far outweighed whatever criminal investigative 
priorities the Bureau or the Justice Department had. These are 
things that have to be worked out on a case-by-case basis. This 
is one instance where there is no absolutes.
    Mr. Davis of Virginia. So we're in some gray areas at this 
point?
    Mr. Leonard. Yes, sir.
    Mr. Davis of Virginia. Thank you very much.
    Chairman Waxman. Thank you, Mr. Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman. Mr. 
Leonard, let me just note that after this information was first 
disclosed in the Novak column on or about July 26, 2003, White 
House press spokesman McClellan stated: Let me make it very 
clear, that's not the way this White House operates.
    Two months later and still before they'd even called for an 
investigation by the Justice Department, on September 29, 2003, 
Mr. McClellan addressed the White House Press Corps and over 30 
times stated that they had no information regarding the 
involvement of any White House officials.
    I think we understand today why there was no information. 
No investigation was done.
    You talked about competing national priorities. Clearly in 
this 2-month period there weren't competing priorities, were 
there? In other words, before the criminal investigation was 
authorized there were no competing priorities?
    Mr. Leonard. To my knowledge, that's correct.
    Mr. Van Hollen. Yet based on your understanding of the 
regulations in the statute and the information that was out in 
the press, which clearly raised suspicions of unauthorized 
disclosure of information, wouldn't that have triggered an 
investigation in your view?
    Mr. Leonard. Again, in circumstances like that, even if it 
was just an inadvertent, out of ignorance disclosure, you would 
want to find out why it happened so you could preclude it from 
happening again, even if it's by ignorance.
    Mr. Van Hollen. Not just that you would want to but you 
have an obligation?
    Mr. Leonard. Yes, sir.
    Mr. Van Hollen. With respect to the pendency of the 
criminal proceedings, as I understand your testimony, there is 
nothing in the statute or the regulations that prohibits you 
from doing this other investigation under the regulations and 
revoking a security clearance, isn't that correct?
    Mr. Leonard. Concomitantly while there is an investigation 
going on? You're absolutely right.
    Mr. Van Hollen. You're absolutely free to do that; nothing 
prohibits you from undertaking an investigation, an 
administrative action?
    Mr. Leonard. The directive is very clear that when there is 
evidence of potential criminality, that there would be the 
requirement to coordinate with legal counsel and the 
requirement to coordinate with the Department of Justice with 
the expectation that again those issues would be worked out.
    Mr. Van Hollen. Worked out in coordination.
    Mr. Leonard. Yes, sir.
    Mr. Van Hollen. Mr. Knodell, if I could just ask you, do 
you know of any, and this doesn't mean you are personally privy 
to the conversations, but have you heard of communications 
within the White House that bear on the question of whether or 
not an investigation of security breaches should have been 
conducted?
    Mr. Knodell. No, I have not.
    Mr. Van Hollen. You don't know, whether it's direct 
communications or hearsay, since you have been there. Have you 
had any conversations with anybody in the White House about the 
disclosures that have been----
    Mr. Knodell. No, I have not.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Van Hollen. Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman. Mr. Knodell, do 
employees sign nondisclosure agreements agreeing not to 
disclose classified information in connection with your 
briefings of them?
    Mr. Knodell. Yes, they do. At the time they they're issued 
a clearance they sign a nondisclosure agreement.
    Mr. Hodes. Am I correct that those nondisclosure agreements 
and security clearances are reviewed every 5 years?
    Mr. Knodell. That's correct.
    Mr. Hodes. I understand that Mr. Rove came into service in 
the White House in 2001, is that correct?
    Mr. Knodell. I believe so.
    Mr. Hodes. So in 2006 you would have conducted review of 
Mr. Rove's security clearance?
    Mr. Knodell. We would have initiated a reinvestigation, 
that's correct, with the FBI. The FBI conducts our background 
investigations.
    Mr. Hodes. Are you aware that has in fact happened with Mr. 
Rove?
    Mr. Knodell. I don't have first-hand knowledge now, but I 
could very easily go back and check.
    Mr. Hodes. So there would be documents which someone in the 
Federal Government has about whether or not Mr. Rove, for 
example, ought to still have his security clearance.
    Mr. Knodell. Correct.
    Mr. Hodes. And do you agree with me that, under the 
regulations, whether a person is truthful and complete in their 
answers to questions and whether or not they are--the person is 
disposed toward candor is an important factor in determining 
whether someone continues to have access to classified action?
    Mr. Knodell. That is considered in the adjudication 
process, yes.
    Mr. Hodes. And if someone lied about what they did, that 
would be important, wouldn't it?
    Mr. Knodell. Yes, it would.
    Mr. Hodes. You have now heard and seen on this video Mr. 
McClellan say that Mr. Rove told him he had nothing to do with 
security leaks, but we know that Mr. Rove did leak classified 
information. Does that indicate to you that such a lack of 
candor should lead to a reexamination of Mr. Rove's security 
clearance?
    Mr. Knodell. I clearly don't know the content of their 
conversation.
    Mr. Hodes. Is it something that--anything you have heard 
today or read in the press or read anywhere else raises a 
question in your mind as the senior security officer in the 
White House about whether or not you ought to go and ask some 
questions about it?
    Mr. Knodell. Yes, we could do that.
    Mr. Hodes. Will you do it?
    Mr. Knodell. I will discuss that with senior management.
    Mr. Hodes. And will you get back to us and let us know what 
senior management and you discuss and what you conclude, sir?
    Mr. Knodell. Yes, I will.
    Mr. Hodes. Does Mr. Libby still have his security clearance 
as of this date?
    Mr. Knodell. No, he does not.
    Mr. Hodes. When was that removed?
    Mr. Knodell. The day he resigned, I believe it was.
    Mr. Hodes. Thank you.
    Thank you, Mr. Chairman.
    Mr. Van Hollen [presiding]. Thank you.
    Ms. Norton.
    Ms. Norton. Could I have back the White House chart?
    I ask Mr. Knodell to look at the middle row; and I would 
like your view, Mr. Knodell, given the Executive order which 
you are charged to enforce in 12958, whether you think any of 
those officials or any officials in the White House, besides 
the President, would meet the standards of the Executive order 
which, as you know, are informational if you are conducting an 
investigation, if there is an official need to know.
    What if you need to verify information concerning security? 
Would any of those officials have had a need to know the name 
of a covert agent?
    Mr. Knodell. I really wouldn't know.
    Ms. Norton. You are the man charged with enforcing the 
Executive Order 12958 and your answer is what?
    Mr. Knodell. I don't know if they would have a need to 
know. I don't have enough information.
    Ms. Norton. Because that depends on what they say? Isn't 
that a matter of regulation and law? I am saying based on their 
position.
    Mr. Knodell. People do have to have a need to know for 
someone with classified information to pass classified 
information. They also have to make sure that there is a non-
disclosure agreement.
    Ms. Norton. So the need to know the name of a covert agent, 
you can think of a circumstance where an official, one of those 
officials, would need to know the name of a covert agent, and I 
have just given you the basis.
    Mr. Knodell. Yes, ma'am. I don't know what the White House 
does day to day in their operations and who they're staying in 
contact with.
    Ms. Norton. So day-to-day operations, that could change; 
and how can anyone find out the name of a covert agent, given 
changes in day-to-day operations in the White House?
    Mr. Knodell. No, ma'am. I don't know if any of those folks 
would have a need to know.
    Ms. Norton. Let me say frankly you to you, Mr. Knodell, I 
don't think you need--I think that--I congratulate you on your 
willingness to be here. I know you wouldn't have been here if 
the White House hadn't sent you. I am interested in remedy, 
because national security is involved in this.
    Normally, the notion of the White House investigating 
itself is perfectly understandable where there is not a 
national security matter involved. But if I may say so, I 
really do think, given what you have testified concerning your 
office, that you are truly the fall guy here. I say that 
because you have testified that you felt a virtual injunction 
as an administrative agent without coordinating with your 
superiors, all of whom--obviously, the high-level support to 
the President of the United States. You clearly don't think you 
could do an independent investigation. Do you think that this 
investigation should lie with someone more independent than 
you?
    Chairman Waxman. The gentlelady's time has expired, but if 
the gentleman wants to respond.
    Mr. Knodell. I am good.
    Ms. Norton. Mr. Chairman, you gave him the option to 
respond.
    Chairman Waxman. You don't want to respond to the question?
    Mr. Knodell. No.
    Chairman Waxman. Well, I want to thank the two of you very 
much for being here. You have been very helpful, Mr. Knodell. 
You came here on short notice, and it's not been an easy time 
for you. However, I guess you sense the frustration of the 
members of this committee when we hear of a breach of national 
security and we were told the President was going to do an 
investigation and the White House has virtually done nothing, 
not even to take away the security clearances pending any other 
investigation by anyone else. But those are my comments, and I 
want to thank both of you for being here.
    We have a third panel waiting to come up.
    For panel No. 3, the Chair would like to call forward Mr. 
Mark Zaid, an attorney with the extent of experience 
representing government employees accused of mishandling 
classified information; and Ms. Victoria Toensing, an attorney 
in private practice and a former Senate staffer.
    I want to welcome you both to our hearing today. Your 
prepared statements will be in the record in their entirety. I 
would like to ask you for your oral presentation to be limited 
to 5 minutes.
    It is the practice of this committee to ask all witnesses 
to take an oath. So if you would please stand and raise your 
right hands
    [Witnesses sworn.]
    Chairman Waxman. The record will reflect the witnesses 
answered in the affirmative.
    Mr. Zaid, why don't we start with you.

   STATEMENTS OF MARK ZAID, ESQUIRE; AND VICTORIA TOENSING, 
                            ESQUIRE

                     STATEMENT OF MARK ZAID

    Mr. Zaid. Thank you, Mr. Chairman, members of the 
committee. It's my pleasure to testify again before this body.
    For nearly 15 years, I have been among a handful of 
attorneys nationwide who regularly handle civil litigation and 
administrative matters involving national security claims. This 
includes all aspects of security clearance suspensions, 
denials, revocations, statutory and first amendment challenge 
to classification decisions, leak investigations and general 
employment disputes that may arise within the Intel, military 
and law enforcement communities. In the exercise of my legal 
responsibilities, I often have authorized access to classified 
information.
    We've heard of the operative documents that pertain to this 
topic, Executive Order 12958, which was amended by 13292, and 
also Executive Order 12968. Agencies throughout the Federal 
Government have adopted implementing regulations attuned to 
their specific situations. But those are the operative 
documents that we really rely on.
    Section 41 of EO 13292 deals with who actually grants or is 
accorded access to classified information. There has to be a 
favorable determination of eligibility. There has to be an 
executed, approved non-disclosure agreement; and there has to 
be a need-to-know determination.
    Each of these components is factually based. Indeed, 
whether a need to know exists is a question that is asked and 
answered by tens of thousands of Federal employees and 
contractors thousands of times every day as part of their 
routine responsibilities.
    However, the underlying premise of that first prong, the 
determination of eligibility, deals with a judgment 
determination, one of common sense that is often referred to as 
the ``whole person concept.''
    Unfortunately, the system is anything but uniform. The 
process by which clearances or where access is granted very 
significantly based on the level of clearance, interim 
clearances can be very easily granted with very little effort 
by an agency. Most agencies, as we have heard, will go through 
a periodic background investigation that usually extends 7 to 
15 years for the individual; and periodic reinvestigations will 
reoccur between 5 and 10 years, depending on the backlog of the 
agency involved and the level of clearance.
    To be blunt, we can discuss all day what the regulations 
state, what minimal due process might be required or expected 
in scenarios touching upon today's hearing topic and what 
outcome a reasonable person would apply in any specific case; 
and that would be an academically and legally fascinating 
discussion, at least for me. But the fact is the recitation of 
real-world anecdotal experiences by those who operate in this 
field will educate you with very different results.
    It is best to characterize any substantive discussion of 
security clearances and agencies, and procedures surrounding 
such determinations, as arbitrary and fraught with 
inconsistencies. Periodically, every agency derives its 
authorities from these operative documents. Implementation 
varies across the board. With some agencies, the process works 
very well. With others, it is particularly broken. Overall, the 
system works but with numerous flaws, many of which can be 
repaired through legislative oversight or correction, though, 
to be sure, it is likely that any such attempt will engender 
cries of constitutional overreach by any White House.
    Let me use this opportunity to go through a few 
observations from cases I have handled over the years.
    Whether the unauthorized disclosure of classified 
information results in administrative, civil, or criminal 
sanctions against an individual is a very fact-based inquiry 
for which no general rule truly exists. The suspension of an 
individual's security clearance can arise from the receipt of 
unsubstantiated anonymous allegations or can occur after a 
thorough internal investigation. At what stage suspension 
occurs is up to the specific agency.
    Moreover, the type of suspension is not deemed to be--this 
type of suspension is not deemed to be an adverse personnel 
action and therefore does not afford the person the substantive 
challenge rights as soon as he is notified of the substantive 
challenges that exist.
    Again, a very fact-based inquiry for which no general rule 
exists.
    Some agencies will utilize a security suspension to suspend 
the employee's employment altogether, pending conclusion of an 
investigation which could take years. This may be paid 
administrative leave, this may be unpaid administrative leave, 
and if that clearance is reinstated at some point in the future 
there is no compensation given to that individual whatsoever.
    Again, a very fact-based inquiry for which no general rule 
truly exists.
    Punishment for an unauthorized disclosure can range from no 
action to something as merely administrative as a reprimand, 
oral or written, in the file. Could be more serious, such as 
the revocation of a clearance or, depending on the factual 
circumstances, criminal prosecution.
    Again, a very fact-based inquiry.
    Significant inconsistencies exist governing agencies' 
determination of access to classified info. Significant 
inconsistencies exist governing an individual's ability to 
challenge a revocation or suspension or denial. Significant 
inconsistencies exist as to how agencies' security 
investigations are initiated or handled.
    Most agencies experience serious and harmful time delays 
with respect to security investigations that seriously impact 
an employee or contractor's life and, in fact, creates 
additional security concerns that did not previously exist.
    An appeal of a clearance revocation is usually--or denial--
will take often 6 to 12 months; and if it is the CIA, we may be 
talking 2 to 3 years. Investigations into the leaks of 
classified information rarely result in either discipline or 
prosecution for a variety of reasons, including the failure of 
Federal agencies to cooperate with one another.
    And the training for authorized holders of classified info 
with respect to this need to know differs from the positions 
the executive branch will espouse in adverse litigation for 
judicial proceedings.
    In my testimony, I set forth a few recommendations that the 
committee can look into implementing. I will leave that in the 
record.
    I will just conclude by saying that this is an area that 
cries out for vigorous legislative oversight, especially given 
recent efforts by the executive branch to expand criminal 
penalties governing disclosures of classified information or 
unauthorized disclosure to beyond those under any affirmative 
obligations which protect such info.
    I encourage this committee to remain steadfast in its 
vision to ensure accountability, efficiency, and fairness while 
combating opposition from the executive branch, no matter which 
party may be in power.
    I am more than happy to provide an elaboration to any of 
those points or anything to this hearing topic or during any 
Q&A that is submitted later.
    Thank you.
    Ms. Watson [presiding]. Thank you.
    Now Ms. Victoria Toensing.

                 STATEMENT OF VICTORIA TOENSING

    Ms. Toensing. Madam Chairman, thank you for inviting me to 
testify about safeguarding classified information. Since you 
also invited Valerie Plame here, I had to assume you also 
wanted to consider the protection of covert agents as specified 
under the 1982 Intelligence Identities Protection Act, the act 
that was the basis for the Special Counsel's investigation.
    My first assignment as chief counsel for the Senate 
Intelligence Committee for Chairman Barry Goldwater was to get 
that law passed. He put me in charge of negotiating with the 
parties, particularly with the press who vigorously opposed the 
legislation because they claimed it would curtail their ability 
to criticize the Intelligence Committee. It would have a 
chilling effect, the press argued.
    In my prepared statement, I thoroughly discussed the 
structure of the act, but I want to now discuss how, because it 
is important to the press arguments, how we divided the types 
of persons who could be prosecuted into two classes: 
journalists and government employees having authorized access 
to classified information.
    We drafted such a high standard for journalists that it is 
almost impossible for a working journalist like Bob Novak in 
his column to have violated the law. But we also did not want 
government employees to be chilled in reporting wrongdoing or 
prosecuted for accidentally saying someone's name without 
having the specific knowledge and intent to ``out'' a covert 
person.
    That caution and respect for the mighty power of the 
criminal law leads me to the main point of my testimony.
    It was Chairman Goldwater's grave concern in creating the 
legislation, the great libertarian, that if Congress was going 
to criminalize naming what in those days we referred to as 
``undercover personnel,'' then the CIA better fulfill its 
responsibility by protecting the cover of those employees.
    Chairman Goldwater was most displeased at that time, and he 
characterized the CIA's cavalier treatment of protecting its 
undercover--and that's how he referred to it before the law--of 
protecting their cover. And you see that concern when you study 
the law, and you see it in one of the seven findings.
    But, more importantly, we created a rare approach in the 
criminal statute. Usually in the criminal law, it is only the 
conduct of the defendant that is at issue, but, in this law, 
Congress required the CIA to take affirmative measures to 
conceal the government's relationship to that covert agent. No 
one can be prosecuted under that law unless this requirement is 
fulfilled by being proved beyond a reasonable doubt.
    The statute also requires the CIA to report annually, 
starting in February 1983, to the House and Senate Intel 
Committees on these--whatever their affirmative measures were, 
whatever they created to protect the identities of covert 
agents.
    I think you might all want to check to see whether they 
have ever fulfilled that mandate by the law, that legislative 
mandate.
    But it comes to mind in the course of this 3-year 
investigation and listening to even the testimony today, could 
the CIA produce immediately--meaning do they already have it 
prepared and they can hurry and get it prepared at your 
request--a list of all foreign assigned personnel that it has 
designated covert under the act? Does the CIA make any list 
available like that to people like their spokesperson who has 
to get on the telephone with people like Bob Novak and confirm 
or deny that somebody works at the CIA?
    I have several other questions in my prepared statement, 
but I want to go on to my last point, and--by turning to this 
particular case where numerous persons were subpoenaed, 
repeatedly, some of them, before a grand jury, threatened with 
prosecution in a matter that, in my legal experience, had no 
criminal basis.
    If Valerie Plame were really covert under the law--I am not 
saying whatever they say in the halls of the CIA. If she were 
really covert under the law, then why didn't Robert Grenier, 
the CIA briefer who talked to Scooter Libby and the Vice 
President about Wilson's wife working at the CIA, why didn't he 
tell them that her identity was covert? Why didn't Richard 
Armitage, who said he was the original leaker, of course, to 
Bob Novak, but he said, having seen Plame's name in a 
Department memo, he had never seen a covert agent's name in 28 
years of government practice. So it was a surprise to him. He 
didn't know how Plame's identity was--that it wasn't to be 
revealed. Neither did Mark Grossman, the Under Secretary.
    If the CIA was really being careful and had guidelines for 
all of these covert agents, why did they allow Valerie Plame to 
contribute $1,000 to Al Gore's campaign and list her CIA cover 
business, Brewster, Jennings and Associates, as her employer?
    Why did the CIA not ask Joe Wilson to sign a 
confidentiality agreement about his mission to Niger? I can 
tell you I have to do it. I don't know, Mark, if you do it when 
you take a case, but I can't talk to someone for 1 hour without 
representation unless I sign a confidentiality agreement, and 
then they might permit him to write an op-ed piece in the New 
York Times about the trip, an act certain to bring press 
attention when his wife's name is in that.
    I mean, this tradecraft is just appalling to me who has 
spent a good deal of my life in government service having to 
deal with classified material and with the CIA in an oversight 
capacity.
    The CIA never sent its top personnel to Bob Novak, like the 
director, and ask him, please, please don't print; don't 
publish this name. What they said to him was, ``Well, we would 
rather you not do it, but she's not going to have another 
foreign assignment,'' so--it was very cavalier.
    They certainly knew, the CIA, how to go and send the top 
people when they didn't want--in December 2005, when they 
didn't want the New York Times to publish the NSA surveillance 
program.
    I have--there's--why didn't CIA spokesman Bill Harlow who, 
according to Wilson's autobiography--and you spoke with Valerie 
Plame about it--and he had been alerted that Bob Novak was 
sniffing around, why did he confirm for Bob Novak that Valerie 
Plame worked at the CIA? Why did Bill Harlow tell Vice 
Presidential Staffer Kathy Martin that Wilson's wife worked at 
the agency but not warn her, ``Oh, you shouldn't be giving up 
this identity?''
    Why did the CIA give Plame a job at its headquarters in 
Langley when it is mandated by the statute, ``to conceal a 
covert agent's intelligence relationship to the United 
States.''
    And if this was really a violation of the Covert Agent 
Identities Bill, why did the CIA send to the Justice Department 
a boilerplate, 11-question criminal referral for classified 
information violation when its lawyers had to know--or pray 
that they knew--that merely being a classified person or the 
situation being classified did not fulfill the elements 
required by the Agent Identities Protection Act?
    Chairman Waxman. Thank you very much.
    [The prepared statement of Ms. Toensing follows:]

    [GRAPHIC] [TIFF OMITTED] T8579.013
    
    [GRAPHIC] [TIFF OMITTED] T8579.014
    
    [GRAPHIC] [TIFF OMITTED] T8579.015
    
    [GRAPHIC] [TIFF OMITTED] T8579.016
    
    [GRAPHIC] [TIFF OMITTED] T8579.017
    
    [GRAPHIC] [TIFF OMITTED] T8579.018
    
    [GRAPHIC] [TIFF OMITTED] T8579.019
    
    [GRAPHIC] [TIFF OMITTED] T8579.020
    
    [GRAPHIC] [TIFF OMITTED] T8579.021
    
    [GRAPHIC] [TIFF OMITTED] T8579.022
    
    Chairman Waxman. I want to recognize Mr. Davis to start 
off.
    Mr. Davis of Virginia. Thank you. We didn't start with 
going into the covert--taking Ms. Plame at her word----
    Ms. Toensing. I am having a hard time hearing you.
    Mr. Davis of Virginia. We didn't go into extensively 
whether it was covert or not. I asked her whether anybody told 
her she was versus what she thought. But the question was--
clearly, there were no crimes committed.
    I'm going to ask each of you, can you name a leak case that 
you have dealt with that has undergone more scrutiny or 
investigation than this one? Mr. Zaid.
    Mr. Zaid. Not as much. Certainly nothing as public as this.
    Mr. Davis of Virginia. Either with grand jury.
    Mr. Zaid. There are numerous grand juries, even ones that 
are going on right now with leak investigations, and they 
haven't received the amount of publicity that this case has.
    Mr. Davis of Virginia. They have a special prosecutor on 
this and you can look at the hours of testimony. This has 
undergone as much scrutiny as any case you are aware of.
    Mr. Zaid. Sure.
    Ms. Toensing. I used to tell Chairman Goldwater--he'd say, 
I want those leakers--in much more crusty language than that--I 
want those leakers prosecuted, and I would say, ``It's the rule 
of 38. If 38 people knew about it, you are probably not going 
to get a prosecution,'' and so usually there is not a 
prosecution in the case.
    Mr. Davis of Virginia. I mean, the thing that strikes me 
through all of this is if the CIA fails to take affirmative 
steps to protect their own agents, how can you expect the 
recipients of information to know that the information is 
protected and take appropriate precautions? Mr. Zaid--I'll ask 
you both.
    Ms. Toensing. I mean, the whole reason that we put that 
into the law was because we didn't want employees to be chilled 
from reporting wrongdoing, that the person had to know, have 
knowledge that the CIA was taking these affirmative measures to 
protect the identity and the relationship of that person. So if 
nobody is telling anybody, it is like, who knew? How would you 
know that something was not to be repeated?
    Mr. Davis of Virginia. The majority is pointing the finger 
at the White House, but the leak didn't come from the White 
House. And, second, there is no evidence--presented here today 
at least--that anybody in the White House knew that she was a 
covert agent.
    Ms. Toensing. Not one person told anybody in the White 
House. We have no evidence.
    Mr. Davis of Virginia. Let me----
    Chairman Waxman. Excuse me. You are saying that 
conclusively. Do you know the facts? Or are you just saying 
there is no evidence?
    Ms. Toensing. I know what facts are out there. If somebody 
wants to point to another fact, I will be glad to listen.
    Chairman Waxman. So what you have heard, you can reach that 
conclusion from. You don't know all of the information.
    Ms. Toensing. From the testimony at trial.
    Mr. Zaid. I think we have to make a distinction between 
criminality and what type of administrative sanctions could 
possibly have been imposed. I have no personal information with 
respect to this case, other than what everybody else does in 
reviewing it with great interest, especially since it's in my 
subject matter knowledge.
    And Ms. Toensing is absolutely correct with many of her 
questions with respect to the Intelligence Identities Act, 
which has a very exacting standard. Ms. Plame, as she 
indicated, was covert. That is a distinction between possibly 
under the Intelligence Identities Act and that classified 
information was leaked and then the question then is of a 
criminal magnitude versus something less than that. And those 
could be any number of penalties.
    Mr. Davis of Virginia. But if you don't know she's 
undercover, it is hard to put a penalty on somebody.
    Mr. Zaid. That would be something like the previous 
witness, where his office would have to investigate to see how 
the leak came about.
    Mr. Davis of Virginia. There is no question this should 
never be leaked. We should never ``out'' any undercover 
operative. I don't think anyone here can condone that in any 
way, shape, or form.
    The difficulty I am having, though, is we are focused today 
just on the White House. The CIA bears some responsibility.
    Ms. Plame's own testimony today talked about they knew the 
story was coming, and she did the appropriate thing in 
reporting to her superiors that the story was coming, a story 
that could end her career. And what did her bosses do? They 
obviously didn't persuade Mr. Novak, but the question is, did 
they send their A Team up there to talk to Mr. Novak? Did they 
let them know that an agent could be outed? That is the 
question.
    Ms. Toensing, what is contemplated under a statute in a 
case like that?
    Ms. Toensing. The statute has very high standards. This is 
almost impossible for a journalist to be indicted under, just a 
regular working journalist, not somebody who has a specific 
intent.
    Mr. Davis of Virginia. No journalist in their right mind 
would do this on purpose.
    Ms. Toensing. But an employee would have to be aware that 
the agency is taking affirmative measures to protect or conceal 
this person's relationship to the United States. If nobody even 
told the people who were being briefed--I mean, the State 
Department didn't know. Dick Armitage didn't know.
    Mr. Davis of Virginia. But the question is, once it gets to 
the press level, say someone inadvertently leaked this to the 
press, what should the CIA do? And notwithstanding the act, 
from a policy perspective, what should the CIA do or be able to 
do to protect their operatives and what do you think they 
should do in this case?
    Ms. Toensing. They didn't do anything in this case. To 
anybody looking at it from--as I view it, as I see all of the 
facts, I have no reason whatsoever to believe that Ms. Plame 
was covert under the statute.
    I mean, they can call--I have represented a covert officer. 
It is not an agent, actually. The statute uses that term, but 
Ms. Plame was a covert officer. I have represented a covert 
officer from the CIA; and let me tell you, in the course of my 
representation, the New York Times was going to print her name 
on its front page. And the New York Times reporter, a wonderful 
reporter, Tim Weiner, called me and said the CIA just called 
him and told him that they were going to go after him 
criminally if they printed her name. No such threat was ever 
given to Bob Novak. And good for Tim Weiner. He went ahead and 
printed it anyway.
    Mr. Davis of Virginia. Let me ask this. So the statute at 
this point gives press almost an immunity on those kinds of 
issues once they learn about it. Is that your reading of the 
law?
    Ms. Toensing. Yes.
    Mr. Davis of Virginia. What should the CIA have done in 
this case if they wanted to protect an operative?
    Ms. Toensing. If this is a very big deal to the CIA, they 
should have brought in the DCI, at least the Deputy, and come 
in with Bob Novak and had a talk and say, ``You cannot print 
this name. This would just be terrible. This is national 
security.''
    Mr. Davis of Virginia. Let me ask you, from a policy 
perspective, notwithstanding where the law is today, that sets 
a very high standard for the press. What should we do--in 
future cases, what should the CIA do once--if you are going to 
have an operative outed, a top-secret memo that could damage 
national security, how should that be handled from a policy 
perspective?
    Mr. Zaid. I wouldn't in any way divert blame from the CIA 
in this matter. There are many steps they could have taken, and 
Ms. Toensing has identified them, and it wouldn't have been the 
first time where a very senior official in the CIA would go to 
a member of the press.
    I often represent covert officers. I mean, routinely. And I 
know the precautions that they try to impose on me, which I 
follow to protect them. Because if their identities are 
released it does put their lives in jeopardy; and, even more 
importantly, because when they are usually back here in the 
United States it puts everyone they ever had any contact with 
in their lives in jeopardy as well as operations.
    I don't know why the CIA didn't do more. That is a good 
question. The CIA should be here to explain that.
    Again, I would make a distinction between that we not only 
look at the criminality of this but we also look at the 
administrative disciplines that should have been meted out.
    I had a client that was disciplined because he was acting 
as a courier with classified information and he left the bag 
locked up in his locked car while he went into McDonald's to 
get a burger with the car in sight. That was the violation. It 
took me a year to get his clearance back.
    So the agencies will take it seriously when they wish to.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Thank you very much, Mr. Davis.
    I have questions, but I don't know whether I want to go 
into all of the time to ask questions.
    But I am stunned, Ms. Toensing, that you would come here 
with absolute conclusions she was not a covert agent. The White 
House did not leak it. No one seemed to know in advance that 
she was a CIA agent. Do you know those facts from your own 
first-hand knowledge?
    Ms. Toensing. Well, let us take those one by one. As I 
said, I was there. I was the chief----
    Chairman Waxman. I am not asking for your credentials. I am 
asking for how you reached those conclusions.
    Ms. Toensing. That's part of her credentials, because I 
know what the intent of the act was.
    Chairman Waxman. I am not asking what the intent of the act 
was. Do you know she was not a covert agent?
    Ms. Toensing. She is not a covert agent under the act. You 
can call her anything you want to in the halls of the CIA.
    Chairman Waxman. General Hayden, the head of the CIA, told 
me personally that she was--if I said that she was a covert 
agent, it wasn't an incorrect statement.
    Ms. Toensing. Does he want to swear that she was a covert 
agent under the act?
    Chairman Waxman. I am trying to say this as carefully as I 
can. He reviewed my statement, and my statement was she was a 
covert agent.
    Ms. Toensing. He didn't say under the act.
    Chairman Waxman. OK. So you're trying to define it exactly 
under the act.
    Ms. Toensing. That's what----
    Chairman Waxman. No, no, no, no, no. I am not giving you--I 
am not yielding my time to you.
    So that is your interpretation. Do you know that the White 
House--no one in the White House leaked this information?
    Ms. Toensing. Well, I don't know even know how to deal with 
the word ``leak'' here. I know that people in the White House--
--
    Chairman Waxman. Well, Karl Rove admitted he leaked it. Do 
you think he is not telling us the truth?
    Ms. Toensing. Well, the words are important, and I'm not 
sure what----
    Chairman Waxman. So you want to completely define the words 
that are so narrow in meaning that your statements can be 
credible but not honest. I am not asking about the statute. I 
am not asking about the statute. Evidently, if there were a 
criminal violation, the Special Inspector General investigating 
this matter might have brought criminal actions. Put that 
aside. Karl Rove said he leaked the information. Do you think 
he did not?
    Ms. Toensing. Let me give you an example.
    Chairman Waxman. I want a yes or no. I am asking you a 
direct question that could be answered yes or no.
    Ms. Toensing. Well, it can't, but I will answer no then and 
explain----
    Chairman Waxman. Do you have first-hand information that 
none of the people at the White House had knowledge that she 
was a covert agent?
    Ms. Toensing. There has no been no testimony. I can only go 
by that.
    Chairman Waxman. You stated it so affirmatively and 
conclusively that I thought maybe you had access to information 
that we didn't have.
    Ms. Toensing. I have information to the testimony, and so 
because I know what the testimony is, that everybody--and I am 
sure that the Special Counsel would have brought in anybody who 
had anything to do with it in the trial----
    Chairman Waxman. Maybe he would have. We thought the White 
House would have investigated the matter, and they didn't.
    Mr. Zaid, in your experience with these kinds of cases, do 
agencies wait until a criminal investigation is complete before 
taking any action or do they sometimes say, while this is 
pending, we are going to take away the security clearance?
    Mr. Zaid. They do not wait, Mr. Chairman. There is no 
requirement that they wait. I could understand in some cases 
there could be a need for coordination. But very often, in my 
experience, by the time you got into a criminal matter, the 
employee or contractor clearance has already been suspended.
    Chairman Waxman. And if an agency's goal is to prevent 
additional security violations and protect classified 
information, doesn't it make sense for the agency to do 
something right away rather than wait as long as 3 years?
    I mean, this is 3 years now that the same people in the 
White House have had classified information given to them, even 
though they have already admitted in most cases that they 
disclosed that information.
    I don't think they should--does it seem right to you that 
they would wait until not only the investigation is complete 
but all of the prosecution has been handled?
    Mr. Zaid. I find it very disconcerting and inconsistent 
with what I have seen at other agencies. I have seen far less 
of a grave situation or clearance infraction that has been 
addressed far more quickly by an agency.
    Again, I don't know personally besides what we all know, 
most part, publicly from what transpired, but from an 
administrative standpoint I am very surprised that something 
has not been done. If it were one of my clients, I am sure 
something would have been done.
    Chairman Waxman. I am not sure if you are familiar with all 
of the administrative activities. You are knowledgeable about 
the law, whether it's a criminal violation, but, in your 
experience, do you know whether agencies will sometimes suspend 
people's security clearances while there is an investigation 
going on?
    Ms. Toensing. Some do and some don't. It would depend on--
as was said by the panel before on a case-by-case basis 
because--and here, if I were the lawyer for a person making the 
decision whether to do so, I would really want the 
decisionmaker to weigh whether it would appear to be 
obstruction of justice. If you start calling in witnesses and 
you start interviewing the witnesses and you're not part of the 
Justice Department----
    Chairman Waxman. That would go to an investigation where 
you could simply say there is an investigation going on in the 
meantime. I think it's more prudent not to allow you to get 
more classified information. That's done frequently.
    Ms. Toensing. I didn't understand what your question was.
    Chairman Waxman. Rather than do a whole investigation that 
might put somebody in a situation where they got two 
investigations going on and so they're represented in the 
investigation-type case, but, in the meantime, we will suspend 
your access to classified information.
    Ms. Toensing. That sometimes happens. It depends on what 
the violation is. It can happen. It cannot happen as Mr.----
    Chairman Waxman. It's not unheard of. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I was sitting here listening to this, and it's just 
something I think is incredible to me, and I think we are 
losing sight of what went on here.
    We had an American who simply wanted to serve her country, 
who put her life, her life, on the line. And I don't know what 
Goldwater--what he was doing, you know. But one thing I do know 
is that we had a lady here who lost her job, lost the 
opportunity to carry out the things that she apparently wanted 
to do, it was her love, while risking her life. And out of all 
of this testimony I hope we don't lose sight of that.
    There is a reason why we have these rules, these laws and 
these Executive orders; and those reasons basically go to 
trying to protect people, Americans, who want to go out there 
and protect us and try to make sure that they are not harmed.
    Were you here, Ms. Toensing, when Ms. Valerie Plame 
testified?
    Ms. Toensing. Yes, I was.
    Mr. Cummings. One of the things that she said--she said two 
things that I know will be embedded in the DNA of every cell of 
my body until I die. She said, I did not--I expected other 
countries to try to reveal my identity, but never did I expect 
my own government to do it. And then she said something else 
that was very interesting. She said that, as a result of the 
disclosure, whole networks of agents have been placed in 
jeopardy.
    The reason why I say that is because it seems like to me 
all of us, as Americans, would want to make sure that we did 
every single thing in our power to protect those people who are 
going out there trying to protect us.
    Going back to the--you know, we have a situation here, too, 
where, you know, it wasn't just the law, it was the order, 
12958, the President's order. And unlike the criminal statute 
which requires an intentional disclosure of classified 
information, the administrative rules prohibit not just 
intentional disclosures but reckless and negligent ones as 
well, isn't that correct?
    Ms. Toensing. You are reading from it. I assume that you 
read it appropriately.
    Can I say a word in reaction to that? I have no problem. I 
have no problem with Ms. Plame. I respect the service that she 
contributed to this country.
    My complaint is two-fold, one against the CIA for not 
taking the proper precautions, as they had promised to do so 
when this act was passed in the 1980's; and, second, with the 
application. Because I am a criminal defense lawyer, but I was 
also a prosecutor, and I don't like to see the law abused. I 
don't like the application of the criminal law to a situation 
that does not have the elements of it. I think that is an abuse 
of prosecutorial power.
    Mr. Cummings. I was a criminal lawyer, too. And, you know, 
I am sure that, consistent with what you just said, you 
believed the testimony should be accurate, did you not? That 
seems consistent with what you just said, that you would want 
anybody's testimony to be accurate. Wouldn't that be correct?
    Ms. Toensing. That is correct.
    Mr. Cummings. I think you said a little earlier that she 
had not been out of the country for 5 years. Didn't you say 
that?
    Ms. Toensing. No, the statute doesn't say that. It says for 
an assignment.
    Mr. Cummings. No, what did you say?
    Ms. Toensing. I said for an assignment. I didn't testify 
about that here today, here yet.
    Mr. Cummings. I thought I read it in something that you 
said to the press at some point. You didn't say that?
    Ms. Toensing. I have always used the term ``under the 
statute.''
    Mr. Cummings. It says here, Washington Post, February 18th, 
just prior to the start of deliberations of the jury in the 
Scooter Libby trial, and you said this as follows--it may be 
wrong. The Washington Post can check it out--but it says, 
``Plame was not covert,'' and you said that, today, ``She 
worked at the CIA headquarters and had not been stationed 
abroad within 5 years of the date of Novak's column.''
    Ms. Toensing. Right. That's the same concept as serving 
outside the United States. That was the whole concept that we 
had when we passed the law.
    The first draft of the law--and I have it in my statement--
was we only applied it to persons who are outside of the United 
States. We never applied it to anybody inside the United 
States. And then people wanted rotation people covered. The CIA 
said, you got to cover rotation people. So we said, how long is 
that? They said, 2 to 3 years. We said, OK, we'll change it.
    ``Or within 3 years of coming back to the United States.''
    And then somebody said, oh, but people retire; and so we 
said, OK, CIA, how long do you need to protect those sources 
that the person had while serving abroad? And they told us 5 
years. So that's why we have the 5-year requirement. But it was 
always intended, because of the assassinations abroad, to 
protect our personnel serving abroad.
    Mr. Cummings. I see my time is up. Thank you very much.
    Ms. Toensing. Inside the United States.
    Chairman Waxman. I wanted to be very clear for the record. 
I said earlier General Hayden and the CIA have cleared the 
following comments: During her employment at the CIA, Ms. 
Wilson was undercover. Her employment status with the CIA was 
classified information prohibited from disclosure under the 
Executive Order 12958. And at the time of the publication of 
Robert Novak's column on July 14, 2003, Ms. Wilson's CIA 
employment status was covert. This was classified information.
    So I wanted to repeat it. I don't know if I misstated it or 
not. But let no one misunderstand it, and I would just use 
those words so we can clarify it for the record.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    I want to kind of pursue this line of questioning, Ms. 
Toensing, as well.
    It is reported, again, by the Washington Post on February 
18, 2007, that you said, I am going to read it. It was just 
read. ``Plame was not covert. She worked at CIA headquarters 
and had not been stationed abroad within 5 years of the date of 
Novak's column.''
    You said you were here, and you heard Ms. Wilson's 
testimony. I took notes on her testimony, and I quoted her. She 
said she was a covert agent, and that was her statement.
    Now it seems to me that your remarks are contrary to that 
statement. So do you still maintain that on February 18, 2007, 
Ms. Wilson was not a covert CIA agent?
    Ms. Toensing. Not under the law. She didn't say she was 
under the law. In fact, she said several times that she was not 
a lawyer. I know what the law requires----
    Ms. Watson. Reclaiming my time.
    You said--this is your statement from that date: ``Plame 
was not covert.'' And my question directly is, do you still 
maintain that on that date she was not a covert CIA officer?
    Ms. Toensing. I was trying to answer. Yes, I still maintain 
that.
    Ms. Watson. Yes or no.
    Ms. Toensing. I still maintain it, yes.
    Ms. Watson. That she was not a covert agent.
    Ms. Toensing. Under the law. Completely.
    Ms. Watson. Ms. Plame was sworn.
    Ms. Toensing. And I am sworn. I am giving you my legal 
interpretation under the law as I know the law, and I helped 
draft the law. The person is supposed to reside outside of the 
United States.
    And let me make one other comment----
    Ms. Watson. No. Reclaiming my time--because this is being 
timed and Members do have to leave--did you receive any 
information directly from the CIA or Ms. Wilson that supports 
your assertion that Ms. Wilson was not a covert officer?
    Ms. Toensing. I didn't talk to Ms. Wilson or the CIA.
    Ms. Watson. And do you have any information about the 
nature of Ms. Wilson's employment status that Director Hayden 
and Ms. Wilson don't have?
    Ms. Toensing. I have no idea--I don't know what he has that 
I don't have. You know, vice versa. I can just tell you what is 
required under the law. They can call anybody anything they 
want to do in the halls, but, under this statute, a criminal 
statute which is interpreted very strictly, all of these 
elements have to be proven beyond a reasonable doubt. That has 
been my concern.
    Ms. Watson. Your testimony is focusing on the criminal 
prohibition in the Intelligence Identities Protection Act. But 
I don't see any mention whatsoever of the administrative 
restrictions contained in Executive Order 12958, which is what 
the invitation letter asks you to address.
    As you note in your written statement--and we have copies 
of it--there are numerous elements that must be proven beyond a 
reasonable doubt in order to establish a crime under the IIPA.
    In contrast, the administrative rules simply prohibit the 
disclosure of classified information to anyone not authorized 
to receive it. Unlike the criminal statute, which requires an 
intentional disclosure of classified information, the 
administrative rules prohibit not just intentional disclosures 
but reckless and negligent ones as well. Is that right?
    Ms. Toensing. Of course.
    Ms. Watson. OK. Therefore, an improper disclosure of 
classified information violates the Executive order, even 
though it does not violate the criminal statute; is that right?
    Ms. Toensing. I am just----
    Ms. Watson. Is that right?
    Ms. Toensing. I wasn't invited here to talk about----
    Ms. Watson. Excuse me. Reclaiming my time. Reclaiming my 
time. Is that right? Yes or no.
    Ms. Toensing. Would you repeat it, please?
    Ms. Watson. I will. Therefore, an improper disclosure of 
classified information violates the Executive order, even 
though it does not violate the criminal statute. Yes or no.
    Ms. Toensing. I take no issue with that. Yeah, that is 
right.
    Chairman Waxman. Thank you, Ms. Watson. Your time has 
expired.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Let me thank both 
of our witnesses here today.
    Ms. Toensing, let me ask you, getting back to the overall 
context in which this all happened, wouldn't you agree that the 
reason the White House official disclosed this information, 
leaked it quietly to the press, was in an effort to discredit 
somehow Ambassador Wilson as a result of the article he wrote 
in the New York Times?
    Ms. Toensing. I have no idea why they gave out that 
information. I do know that there was this allusion by Joe 
Wilson that he was sent on the trip by the Vice President's 
office. So it made sense to me, if you are sitting in the Vice 
President's office, to say, ``We didn't send him. We didn't 
know what this is all about.'' And in the inquiry, as I 
understand it, and you may have different facts, the response 
was his wife sent him. And guess who did that? The INR 
statement at the State Department.
    Mr. Van Hollen. Do you know why Mr. Rove, after disclosing 
some of this information to Mr. Cooper at Time Magazine, would 
have concluded by saying I have already said too much?
    Ms. Toensing. I have no idea.
    Mr. Van Hollen. It seems to me that kind of statement--of 
course, we can't all read Mr. Rove's mind, but an ordinary 
interpretation of that may be to conclude that he already 
provided him information that he knew he shouldn't be 
providing.
    Let me just go back to the other statements made by the 
White House. We saw the clip here of their spokesman, Scott 
McClellan, stating that the White House had not been involved 
in the disclosure of Valerie Plame as somebody who worked at 
the CIA. Now you agree she worked at the CIA, right?
    Ms. Toensing. Yeah. I didn't hear that statement, but 
that's OK. If you are going to say he said those words--I 
thought he said in giving off classified information, but----
    Mr. Van Hollen. My understanding is what they were 
essentially saying, they were not involved in the disclosures 
that had been made and, clearly, the testimonies that were 
involved in the disclosures that had been made.
    Let me get back to, as I said, the purpose of the hearing. 
Part of the purpose of the hearing was to look at how the White 
House safeguards security information. That is the reason we 
had the second panel. And did you know before the testimony 
today that the White House itself had not undertaken any kind 
of investigation internally from the security office?
    Ms. Toensing. I didn't know that, but I would have 
concurred with that with a massive criminal investigation going 
on. If I was a lawyer to the President, I would say don't you 
dare do a thing until this criminal investigation and 
prosecution is over.
    Mr. Van Hollen. It was more than 2 months after this 
initially broke that Scott McClellan in another statement said, 
we have no information in the White House about any of these 
disclosures. Before you made that kind of statement, wouldn't 
you undertake some kind of investigation?
    Ms. Toensing. Well, I am not here to answer for Scott 
McClellan.
    Mr. Van Hollen. There is one issue that has to do with once 
the criminal investigation was started, but a long period of 
time went by when no administrative action was taken, and, as I 
understand your response to the question by Ms. Watson, you 
would agree that kind of sort of investigation goes on 
routinely when there has been a disclosure of classified 
information, does it not?
    Ms. Toensing. It can, and it cannot. I mean, I certainly 
wouldn't have done it in the brouhaha that occurred within a 
week of Bob Novak's publication.
    By the way, Bob Novak was not the first person to say she 
was covert. That was David Corn who printed that she was 
covert. Bob Novak called her an operative.
    Mr. Van Hollen. This is a period of 2 months when there was 
lots of questions, everyone was trying to find out what was 
going on. The CIA had said that this was an unauthorized 
disclosure. The President of the United States said, ``this is 
a very serious matter, and our administration takes it 
seriously.''
    Do you agree this was a serious matter?
    Ms. Toensing. Well, I think an outing, if somebody's career 
is being affected, is, of course, a serious matter. The issue 
is whether it was--the outing was done intentionally under the 
criminal law. That is what I have written about always.
    Mr. Van Hollen. I understand. I understand your point under 
the criminal law.
    The other question, though, is why people didn't take 
action under the non-criminal law as part of safeguarding 
secrets at the White House. And I understand your focus is on 
the other issue, but I have to say it is stunning that the 
White House would tell us they had no information about this 2 
months after the first disclosures and we hear today that they 
never conducted any investigation. I mean----
    Ms. Toensing. I would agree with you that it was a bad 
situation that happened. But I say shame on the CIA, that the 
briefer did not tell anybody at the White House that----
    Chairman Waxman. How do you know that? How do you know?
    Ms. Toensing. He testified to that at the Scooter Libby 
trial.
    Chairman Waxman. Who was that briefer?
    Ms. Toensing. Grenier. Robert Grenier.
    Chairman Waxman. And he was the briefer from the CIA?
    Ms. Toensing. He said, I talked about Valerie Plame. I 
talked about the wife with Scooter Libby and the Vice 
President, but I didn't tell them that--this was on cross-
examination. He admitted that he had not said that her status 
was either classified or covert.
    Mr. Van Hollen. If I could, Mr. Chairman. Do you think 
White House officials have any obligation at all to put aside 
the legal obligation as stewards of our national security when 
they find out that someone works for the Central Intelligence 
Agency? Do you think they have any obligation to citizens of 
this country to find out, before telling the President about 
it, whether that disclosure would compromise sensitive 
information? Do you think--as just citizens of this country, 
wouldn't you want that to be the standard?
    Ms. Toensing. I think the Press Secretary should always 
tell what is accurate. The Press Secretary should always tell 
what is accurate. I have no problem with that.
    Mr. Van Hollen. Before somebody goes around saying this 
person works for the CIA in a cavalier manner--obviously, 
intentional manner to try to spread this information, don't you 
think they have an obligation to the citizens of this country 
to make--we are talking about the Iraq war, decisions for going 
to war, whether or not Saddam Hussein was trying to get nuclear 
weapons material. Before they disclosed the identity of 
somebody who works in the nuclear nonproliferation area of the 
CIA, don't you think they have some obligation for--and to 
demonstrate the good judgment to find out if that would 
disclose sensitive information? That is my question.
    Ms. Toensing. Well, it could be, but I don't particularly 
think that a red flag would go off. Because those of us who 
work in government all the time know people who work at the CIA 
and talk with people who are at the CIA, so you wouldn't 
necessarily say----
    Mr. Van Hollen. We don't all of us go around trying to use 
that information with reporters for the purpose of discrediting 
somebody.
    Ms. Toensing. Let me say--do you want me to tell you my 
experience? Because, as Mark has represented, people who are 
covert--and I have asked them since all of this occurred, well, 
would you ever have a desk job at being covert at Langley? And 
they laugh at me. You know--I don't know. I have never been 
covert. I have represented people, and this is what they tell 
me.
    Chairman Waxman. The gentleman's time has expired.
    I want to thank both of you.
    Mr. Zaid, I had other questions for you. Let me ask you one 
quick one.
    If you had clients like Fleischer and Martin and Libby and 
Cheney and Rove, let's say they were worried because they 
disclosed information that they shouldn't have disclosed, 
wouldn't you tell them that they were treated a lot better than 
most people who disclosed classified information?
    Mr. Zaid. They are treated a lot better than many of my 
clients, some of whom who have testified before you like 
Lieutenant Colonel Anthony Shaffer, who did lose his security 
clearance and his job at the Defense Intelligence Agency for 
incurring $67 in cellular phone bills and a couple of other 
petty issues like stealing pens from the U.S. Embassy when he 
was 14 years old 30 years ago. So, yes, I would say there is 
quite a number of people who have fared a great deal better 
than many of my clients. But if they want to hire me--I 
represent Republicans and Democrats--I don't have any problem.
    Chairman Waxman. As you should.
    Ms. Toensing. Me, too.
    Chairman Waxman. Their double standard doesn't make any 
difference. You are counsel, and everything is entitled to 
representation.
    I want to thank you both for being here. Ms. Toensing, I 
have the pleasure to say we are pleased to accommodate the 
request of the minority to have you as a witness. Some of the 
statements you have made, without any doubt with great 
authority, I understand may not be accurate, so we are going to 
check the information and we are going to hold the record open 
to put in other things that might contradict some of what you 
had to say.
    The only thing I will say is that when we heard from Mrs. 
Wilson and we have heard from Fitzgerald and I talked 
personally to General Hayden, they have a different view as to 
what is a protected agent than you do; and your knowledge is 
knowledge is based on writing the law 30 years ago.
    Ms. Toensing. Don't date me that far. It was 25.
    Chairman Waxman. Well, we will check that fact out, also. 
But if I am incorrect, my apologies.
    The committee stands adjourned.
    [Whereupon, at 2:30 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8579.023

[GRAPHIC] [TIFF OMITTED] T8579.024

[GRAPHIC] [TIFF OMITTED] T8579.025

[GRAPHIC] [TIFF OMITTED] T8579.026

[GRAPHIC] [TIFF OMITTED] T8579.027

[GRAPHIC] [TIFF OMITTED] T8579.028

[GRAPHIC] [TIFF OMITTED] T8579.029

[GRAPHIC] [TIFF OMITTED] T8579.030

[GRAPHIC] [TIFF OMITTED] T8579.031

                                 <all>

</pre></body></html>
